<html>
<title> - H.R. 1946 and H.R. 4129</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
                        H.R. 1946 and H.R. 4129
=======================================================================




                          LEGISLATIVE HEARING

                               before the

                    SUBCOMMITTEE ON WATER AND POWER

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             April 24, 2002

                               __________

                           Serial No. 107-107

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov












                           U.S. GOVERNMENT PRINTING OFFICE
78-895                          WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001







                         COMMITTEE ON RESOURCES

                    JAMES V. HANSEN, Utah, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska,                   George Miller, California
  Vice Chairman                       Edward J. Markey, Massachusetts
W.J. ``Billy'' Tauzin, Louisiana     Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Peter A. DeFazio, Oregon
Elton Gallegly, California           Eni F.H. Faleomavaega, American 
John J. Duncan, Jr., Tennessee           Samoa
Joel Hefley, Colorado                Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Scott McInnis, Colorado              Calvin M. Dooley, California
Richard W. Pombo, California         Robert A. Underwood, Guam
Barbara Cubin, Wyoming               Adam Smith, Washington
George Radanovich, California        Donna M. Christensen, Virgin 
Walter B. Jones, Jr., North              Islands
    Carolina                         Ron Kind, Wisconsin
Mac Thornberry, Texas                Jay Inslee, Washington
Chris Cannon, Utah                   Grace F. Napolitano, California
John E. Peterson, Pennsylvania       Tom Udall, New Mexico
Bob Schaffer, Colorado               Mark Udall, Colorado
Jim Gibbons, Nevada                  Rush D. Holt, New Jersey
Mark E. Souder, Indiana              James P. McGovern, Massachusetts
Greg Walden, Oregon                  Anibal Acevedo-Vila, Puerto Rico
Michael K. Simpson, Idaho            Hilda L. Solis, California
Thomas G. Tancredo, Colorado         Brad Carson, Oklahoma
J.D. Hayworth, Arizona               Betty McCollum, Minnesota
C.L. ``Butch'' Otter, Idaho
Tom Osborne, Nebraska
Jeff Flake, Arizona
Dennis R. Rehberg, Montana

                      Tim Stewart, Chief of Staff
           Lisa Pittman, Chief Counsel/Deputy Chief of Staff
                Steven T. Petersen, Deputy Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                

                    SUBCOMMITTEE ON WATER AND POWER

                   KEN CALVERT, California, Chairman
            ADAM SMITH, Washington, Ranking Democrat Member

 Richard W. Pombo, California        George Miller, California
George Radanovich, California        Peter A. DeFazio, Oregon
Greg Walden, Oregon,                 Calvin M. Dooley, California
  Vice Chairman                      Grace F. Napolitano, California
Michael K. Simpson, Idaho            James P. McGovern, Massachusetts
J.D. Hayworth, Arizona               Hilda L. Solis, California
C.L. ``Butch'' Otter, Idaho          Brad Carson, Oklahoma
Tom Osborne, Nebraska
Jeff Flake, Arizona
                                 ------                                

















                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on April 24, 2002...................................     1

Statement of Members:
    Calvert. Hon. Ken, a Representative in Congress from the 
      State of California........................................     2
        Prepared statement on H.R. 1946 and H.R. 4129............     2
    Cannon, Hon. Chris, a Representative in Congress from the 
      State of Utah, Prepared statement on H.R. 4129.............    11
    Rehberg, Hon. Dennis R., a Representative in Congress from 
      the State of Montana.......................................     3
        Prepared statement on H.R. 1946..........................     4

Statement of Witnesses:
    Brailsford, Hon. Randy A., Mayor, City of Salem, Utah........    16
        Prepared statement on H.R. 4129..........................    18
    Christiansen, Don A., General Manager, Central Utah Water 
      Conservancy District.......................................    13
        Prepared statement on H.R. 4129..........................    15
    Howarth, William Boyd, Chairman, Juab County Commission......    30
        Prepared statement on H.R. 4129..........................    31
    James, Leslie, Executive Director, Colorado River Energy 
      Distributors Association...................................    22
        Prepared statement on H.R. 4129..........................    23
    Keil, Daniel, Chairman North Central Montana Regional Water 
      Authority..................................................    38
        Prepared statement on H.R. 1946..........................    39
    Keys, John W. III, Commissioner, Bureau of Reclamation, U.S. 
      Department of the Interior.................................     7
        Prepared statement on H.R. 1946..........................     9
    McMullin, Robert W., President, Strawberry Water Users 
      Association................................................    26
        Prepared statement on H.R. 4129..........................    28
    Peterson, Margaret, Council Member, West Valley City Council, 
      Utah.......................................................    19
        Prepared statement on H.R. 4129..........................    21
    Raley, Bennett W., Assistant Secretary, Water and Science, 
      U.S. Department of the Interior............................     5
        Prepared statement on H.R. 4129..........................     6
    Sunchild, Bruce, Sr., Vice-Chairman, Chippewa Cree Tribe of 
      the Rocky Boy's Reservation................................    34
        Prepared statement on H.R. 1946..........................    35
    Tubbs, John E., Chief, Resource Development Bureau, Montana 
      Department of Natural Resources and Conservation...........    45
        Prepared statement on H.R. 1946..........................    47













H.R. 4129, To amend the Central Utah Project Completion Act to clarify 
 the responsibilities of the Secretary of the Interior with respect to 
 the Central Utah Project, to redirect unexpended budget authority for 
 the Central Utah Project for wastewater treatment and reuse and other 
    purposes, to provide for prepayment of repayment contracts for 
municipal and industrial water delivery facilities, and to eliminate a 
 deadline for such prepayment; and H.R. 1946, To require the Secretary 
  of the Interior to construct the Rocky Boy's/North Central Montana 
 Regional Water System in the State of Montana, to offer to enter into 
 an agreement with the Chippewa Cree Tribe to plan, design, construct, 
 operate, maintain and replace the Rocky Boy's Rural Water System, and 
   to provide assistance to the North Central Montana Regional Water 
  Authority for the planning, design, and construction of the noncore 
                    system, and for other purposes.

                              ----------                              


                       Wednesday, April 24, 2002

                     U.S. House of Representatives

                    Subcommittee on Water and Power

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to call, at 2:02 p.m., in 
room 1334, Longworth House Office Building, Hon. Ken Calvert 
[Chairman of the Subcommittee] presiding.

  STATEMENT OF THE HONORABLE KEN CALVERT, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Calvert. The Subcommittee on Water and Power will come 
to order. The Committee is meeting today to hear testimony on 
two bills, H.R. 4129, to amend the Central Utah Project 
Completion Act, and H.R. 1946, to require the Secretary of 
Interior to construct the Rocky Boy's/North Central Montana 
Rural Water System and to provide assistance to the North 
Central Montana Regional Water Authority for the planning, 
design, and construction of the noncore system, and for other 
purposes.
    Under Rule 4(b) of the Committee Rules, any oral opening 
statements at hearings are limited to the Chairman and Ranking 
Minority Member. If other members have statements, they can be 
included in the record under unanimous consent.
    Nearly 50 years ago the Colorado River Storage Project Act 
of 1956 initiated the comprehensive development of the Colorado 
River water in Colorado, Wyoming, New Mexico, and Utah. It 
provided authority to construct storage facilities and 
conveyance systems to allow these States to utilize their 
apportionments of the mighty Colorado River. Projects have been 
completed in California, Nevada, and Arizona, and many are 
still being completed in the upper basin States.
    It has been almost 10 years since the Central Utah Project 
Completion Act of 1992 was enacted. There have been many 
changes in western water policy that require considerable 
flexibility. This act will provide changes to the project which 
will allow prepayment and shifting of existing budget 
authority, providing the means for the State of Utah to meet 
the growing water demands on the Rocky Mountains' western 
slope. This legislation is an important building block to 
preserve the quality of life in Utah while also accommodating 
the continued growth.
    Mr. Calvert. Second, we will hear from witnesses who will 
discuss H.R. 1946, to require the Secretary of the Interior to 
construct the Rocky Boy's/North Central Montana Regional Water 
System. No one questions the need for a family to have safe 
drinking water in their homes. There are several locations in 
the heart of this great Nation that do not have that luxury. 
This act seeks to find solutions on how to provide clean, safe 
drinking water to many homes in Central Montana.
    Mr. Calvert. Before we hear our witnesses, I would now like 
to recognize Mr. Cannon, who is not here yet, so we will 
recognize him a little bit later.
    And so in the meantime we will go to the next bill which we 
will work on presently. Mr. Rehberg, the sponsor of H.R. 1946, 
you are recognized to further discuss the bill.
    [The prepared statement of Mr. Calvert follows:]

Statement of The Honorable Ken Calvert, Chairman, Subcommittee on Water 
                               and Power

    Today we will hold a legislative hearing on two bills, H.R. 4129, 
amending the Central Utah Project Completion Act, and H.R. 1946, the 
Rocky Boy's/North Central Montana Regional Water System, and to provide 
assistance to the North Central Montana Regional Water Authority for 
the planning, design, and construction of the non-core system, and for 
other purposes.
    First, H.R. 4129, to amend the Central Utah Project Completion Act.
    Nearly 50 years ago, the Colorado River Storage Project Act of 1956 
initiated the comprehensive development of Colorado River water in 
Colorado, Wyoming, New Mexico and Utah. It provided the authority to 
construct storage facilities and conveyance systems to allow these 
states to utilize their apportionments of the mighty Colorado River. 
Projects have been completed in California, Nevada and Arizona; and 
many are still being completed in the upper basin states.
    It has been almost 10 years since the Central Utah Project 
Completion Act of 1992 was enacted. There have been many changes in 
western water policy that require considerable flexibility. This act 
will provide changes to the project which will allow prepayment, and 
shifting of existing budget authority, providing the means for the 
State of Utah to meet the growing water demands on the Rocky Mountains' 
western slope. This legislation is an important building block to 
preserve the quality of life in Utah, while also accommodating the 
continued growth.
    Secondly, we will hear from witnesses who will discuss H.R. 1946, 
to require the Secretary of the Interior to construct the Rocky Boy's/
North Central Montana Regional Water System.
    No one questions the need for a family to have safe drinking water 
in their homes. There are several locations in the heart of this great 
nation that do not have that luxury. This act seeks to find solutions 
on how to provide clean, safe drinking water to many homes in central 
Montana.
    Before we hear from our witnesses, I now recognize the gentleman 
from Utah, Mr. Cannon, the sponsor of H.R. 4129, and Mr. Rehberg the 
sponsor of H.R. 1946 to further discuss these bills.
                                 ______
                                 

STATEMENT OF THE HONORABLE DENNIS R. REHBERG, A REPRESENTATIVE 
             IN CONGRESS FROM THE STATE OF MONTANA

    Mr. Rehberg. Thank you, Mr. Chairman. Mr. Chairman and 
other members of the Subcommittee, I am pleased to be here 
today to support and urge the passage of H.R. 1946, the Rocky 
Boy's/North Central Montana Regional Water System Act of 2001.
    I have introduced this bill to authorize the construction 
of a rural municipal and industrial water system for residents 
on and near the Rocky Boy's Reservation in North Central 
Montana. The reservation and the neighboring communities have 
an acute need for a safe and reliable water source. Much of the 
area suffers from both poor quality water and limited water 
availability.
    The current water system on the reservation is designed to 
deliver water at rates well below the average usage rates in 
the surrounding area, the State of Montana, and the United 
States in general. The quality of the groundwater on the 
reservation and throughout north central Montana is generally 
unacceptable for domestic use, and according to the Indian 
Health Service, has contributed to health problems on the 
reservation.
    Many small communities, both on and off the reservation, 
are faced with increasingly strict Federal regulations 
requiring new and updated water treatment systems. Communities 
which have relied on groundwater, which is now classified as 
groundwater under direct influence of surface water, are faced 
with the need to begin treating their water source, and the 
communities just don't have the resources to meet the current 
and future requirements of the Federal Safe Drinking Water Act.
    The Rocky Boy's/North Central Montana Regional Water System 
addresses this problem by authorizing the construction of a 
central water treatment plant to provide the area with a safe 
and dependable water supply. The area needs safe drinking water 
to improve the health of its current residents and to stimulate 
economic development on the reservation and in the neighboring 
communities.
    I look forward to the testimony of my constituents who have 
traveled all the way from Montana, and if I might divert for 
just a minute, you know, I see it as a real cruel hoax that our 
government many years ago set aside land under the reservation 
system but then gave them land where the water does not qualify 
or does not meet the strict standards that the Federal 
Government has established. It is good that the Federal 
Government established the standards, but at the same time it 
is an unfunded mandate if we don't provide the opportunity for 
those that live on the reservation to create the economic 
development necessary to provide the revenue to build the 
system.
    There will be those that perhaps will be opposed to this 
because of the dollar figure, but I would submit to you that if 
any of these people in the audience turned on their tap and did 
not have water, they would find that unacceptable. If anybody 
in the audience or anybody that is going to oppose this 
legislation had to drink water that was not safe, they would be 
upset, as we are.
    I personally, on my own ranch, this is the third year I 
have had to haul water for domestic use, to drink, to do our 
clothes, to shower. Last year I had to go in for emergency 
water assistance to get the water to my cattle.
    There are areas in this country that are so sparsely 
populated, but we can't change that fact. We can't move 
Montana, or we can't move north central Montana to southern 
California or New York or Los Angeles where they have domestic 
supplies of municipal water that are safe and meet the 
standards. We can't do that, we the least we can do as a 
Federal Government, if we are going to establish the standards, 
if we want to support clean drinking water in this country, 
then we have to have an opportunity, to create an opportunity 
for people to afford it, and this bill does that.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Rehberg follows:]

   Statement of The Honorable Dennis R. Rehberg, a Representative in 
                   Congress from the State of Montana

    Mr. Chairman and members of the subcommittee, I am pleased to be 
here today to support and urge the passage of H.R. 1946, the Rocky 
Boy's/North Central Montana Regional Water System Act of 2001. I have 
introduced this bill to authorize the construction of a rural, 
municipal and industrial water system for residents on and near the 
Rocky Boy's Reservation in north central Montana.
    The Rocky Boy's Reservation and the neighboring communities have an 
acute need for a safe and reliable water source. Much of the area 
suffers from both poor quality water and limited water availability.
    The current water system on the Reservation is designed to deliver 
water at rates well below the average usage rates in the surrounding 
area, the state of Montana, and the United States in general. The 
quality of the groundwater on the Reservation and throughout north 
central Montana is generally unacceptable for domestic use, and 
according to the Indian Health Service has contributed to health 
problems on the Reservation.
    Many small communities, both on and off the Reservation, are faced 
with increasingly strict Federal regulations requiring new or updated 
water treatment systems. Communities which have relied on groundwater, 
which is now classified as groundwater under the direct influence of 
surface water, are faced with the need to begin treating their water 
source--and the communities just don't have the resources to meet the 
current and future requirements of the Federal Safe Drinking Water Act.
    The Rocky Boy's/North Central Montana Regional Water System 
addresses this problem by authorizing the construction of a central 
water treatment plant to provide the area with a safe and dependable 
water supply. The area needs safe drinking water to improve the health 
of its current residents and to stimulate economic development on the 
Reservation and in the neighboring communities.
    I look forward to the testimony of my constituents, who have 
traveled from Montana, to testify concerning the great need for this 
regional water system.
                                 ______
                                 
    Mr. Calvert. I thank the gentleman.
    On our first panel we have Bennett Raley, the Assistant 
Secretary of Water and Science, Department of Interior, and 
John W. Keys, III, the Commissioner of Bureau of Reclamation, 
U.S. Department of the Interior.
    And before we start our testimony, it is the habit of this 
Chairman to try to go through the testimony prior to a hearing. 
It is impossible, Mr. Raley, to do that if we don't have the 
testimony to read. We apparently have just received your 
testimony 2 hours ago, and this is the second time in which I 
have asked you to please get this testimony in 2 days prior to 
the hearing date so I and the minority would have the 
opportunity to read that testimony.
    It doesn't matter which administration might be in power, 
or which party. That is irrelevant. We need to have that 
testimony to review. So I would hope in the future that we can 
have that testimony in a timely manner.
    Mr. Keys, you got yours in yesterday. That is a little 
better, but 2 days is the time in which it gives us sufficient 
time to review that, where we can put together the right 
questions and be able to treat this hearing with all the 
seriousness it deserves.
    Mr. Raley. Mr. Chairman, your comments are more gracious 
and more gentle that we deserve.
    Mr. Calvert. I appreciate you taking that seriously, and 
hopefully we won't have to have this discussion again. Thank 
you.
    With that, I will introduce Mr. Raley. Of course you know 
the rules, the 5-minute rule, and you may begin any time you 
would like.

  STATEMENT OF BENNETT RALEY, ASSISTANT SECRETARY, WATER AND 
              SCIENCE, DEPARTMENT OF THE INTERIOR

    Mr. Raley. Thank you, Mr. Chairman, members of the 
Committee. My name is Bennett Raley. I am the Assistant 
Secretary for Water and Science of the Department of the 
Interior, and I appreciate the opportunity to appear here today 
to provide the views of the Department on H.R. 4129, regarding 
amendments to the Central Utah Project Completion Act.
    I would like to first note that I have felt a deep sense of 
connection to the Central Utah Project for a number of years. I 
toured the project in the 1980's with a gentleman by the name 
of Mr. Sayer, who was later to become the Assistant Secretary 
and had a role in this project in the Department of the 
Interior. At the time, I had no idea that I would some day have 
responsibility for the Central Utah Project. I also was on the 
floor of the Senate with my Senator when the 1992 act passed.
    So I feel like I am here as a minor part in a very rich and 
long and important history. I don't understand all that 
history, but I understand the importance of this act to the 
future of Utah and the fulfillment of obligations of the United 
States to those that it has dealt with under reclamation laws 
that have been in place since 1902.
    I also understand, as is the case throughout the West, that 
there are a number of complex issues. There have been events in 
the past which, in retrospect, I think everyone would like to 
avoid. And I want to pledge to you, Mr. Chairman, and to the 
members of the Committee and the delegation in particular from 
Utah, that we will do our best to meet with all of our citizens 
to work through issues. And while we can't promise that we will 
provide the answer they seek, we will meet with them and try to 
fully understand their issues.
    With that, Mr. Chairman, may I ask that my comments, my 
written testimony, albeit late, be submitted for the record?
    Mr. Calvert. Without objection, any comments and additional 
information will be entered into the record.
    Mr. Raley. And with that I will just simply move to what I 
am assuming will be the point of what I promised to the Chair 
and to the delegation from Utah to be my personal attention to 
this legislation, and to working out issues that the 
Administration believes need to be addressed as this 
legislation moves forward.
    I will highlight three that are actually mentioned on the 
second and third pages of my testimony, namely the 
modifications to Section 202(c) of the act and the 
Administration's position regarding the limitation of the 
amount available under Section 202(c) to a specific amount; 
deauthorization of the balance of the unexpended budget 
authority provided for in the other units of the Central Utah 
Project; and deletion of the authorization for the Hatchtown 
Dam in Garfield County.
    We understand and expect that there is a need for further 
dialog on this, and I again pledge to the Subcommittee, the 
Chair and the members of the Committee, that you will have my 
personal attention so that we can resolve these issues and move 
forward with serving the people of the West.
    [The prepared statement of Mr. Raley follows:]

  Statement of Bennett Raley, Assistant Secretary, Water and Science, 
                    U.S. Department of the Interior

    My name is Bennett Raley. I serve as the Assistant Secretary--Water 
and Science in the Department of the Interior. I appreciate the 
opportunity to appear before you to provide views of the Department on 
H.R. 4129 which would amend the Central Utah Project Completion Act. 
The proposed legislation attempts to clarify the responsibilities of 
the Secretary of the Interior with respect to the Central Utah Project, 
to redirect unexpended budget authority for the Central Utah Project 
for wastewater treatment and reuse and other purposes, to provide for 
prepayment of the repayment contract for municipal and industrial water 
delivery facilities, and to eliminate a deadline for such prepayment.
    The Central Utah Project Completion Act, Titles II-VI of P.L. 102-
575, provides for the completion of the construction of the Central 
Utah Project (CUP) by the Central Utah Water Conservancy District. The 
Act also authorizes funding for fish, wildlife, and recreation 
mitigation and conservation; establishes an account in the Treasury for 
deposit of these funds and other contributions; establishes the Utah 
Reclamation Mitigation and Conservation Commission to coordinate 
mitigation and conservation activities; and provides for the Ute Indian 
Water Rights Settlement.
    The Administration has concerns over the legislation, and would 
like to work with the Chairman and the Committee to modify the language 
to include several important amendments.
    Section 201(b) of Public Law 102-575 (Act) essentially deauthorized 
several of the project features without clarifying how the amounts 
previously expended in investigating and planning those projects and 
features should be dealt with. H.R. 4129 would clarify that these costs 
are non-reimbursable and non-returnable, which could result in a paygo 
impact.
    In addition, amendments to Section 201(e) of H.R. 4129 provide the 
Secretary with sufficient flexibility to continue to utilize the 
expertise and capability within the Bureau of Reclamation to fulfill 
her responsibilities under the Act. These provisions authorize a pilot 
management program within the Bureau of Reclamation. The pilot 
management program will provide a mechanism for the Secretary and the 
District to create a mutually acceptable management program within the 
Bureau of Reclamation to assist the Secretary in her responsibilities 
for the long term management of the Bonneville Unit. It is important 
that the Secretary be given the flexibility to extend the pilot 
management program indefinitely. It is also important to clarify that 
the amendments to this section of the Act, which expand the designation 
of authorities which are specifically reserved to the Secretary and may 
not be delegated to the Bureau, to include aspects of the Colorado 
River Storage Project Act (CRSP), are limited to the Bonneville Unit 
and do not affect other aspects of the CRSP. Further, the amendments do 
not affect the Bureau of Reclamation's and Western Area Power 
Administration's responsibilities regarding all matters relating to all 
CRSP power functions including power revenues, power rates, and 
ratemaking. Therefore, the Administration supports the amendments to 
Section 201(e) of the Act.
    Over the past several decades the population along the Wasatch 
front in Utah has grown dramatically which has resulted in an increased 
demand for municipal and industrial water. The last paragraph of 
Section 202(a)(1)(B) of the Act only provides for features to deliver 
irrigation water. H.R. 4129 includes an amendment to this section of 
the Act to provide the flexibility to construct features that also 
deliver municipal and industrial water. The Administration supports 
this amendment; however, the amendment as worded specifies only to 
insert the words ``and municipal.'' We suggest it may be better to 
specify, ``and municipal and industrial.''
    The amendments to Section 202(c) of the Act, as proposed in H.R. 
4129, section 1(d), do not designate a specific amount that would be 
available for these expanded activities, but rather authorizes the 
entire amount of available ceiling under the other units of the Central 
Utah Project to be made available. H.R. 4129 should be modified to: (1) 
limit the amount available under Section 202(c) to a specific amount; 
(2) deauthorize the balance of the unexpended budget authority provided 
for in the other units of the Central Utah Project; and (3) delete the 
authorization for Hatchtown Dam in Garfield County. The Administration 
does not support the amendments to Section 202(c) of the Act unless 
these changes can be incorporated into the amendments. We would 
appreciate the opportunity to work with the sponsors of the 
legislation, the Utah delegation, and the Congressional committees to 
modify the amendments to Section 202(c) such that they would be 
acceptable to all parties.
    The Administration supports the amendments to Section 210 of the 
Act as proposed in H.R. 4129.
    Again Mr. Chairman, with the changes recommended above, the 
Administration would support H.R. 4129. I would be happy to answer any 
questions you may have.
                                 ______
                                 
    Mr. Calvert. Mr. Keys, you are recognized.

    STATEMENT OF JOHN W. KEYS, III, COMMISSIONER, BUREAU OF 
          RECLAMATION, U.S. DEPARTMENT OF THE INTERIOR

    Mr. Keys. Mr. Chairman, I am John Keys, Commissioner of the 
Bureau of Reclamation. It is a pleasure to be here today and 
provide the Administration's views on H.R. 1946, legislation 
that would require the Secretary of the Interior to construct 
the Rocky Boy's/North Central Montana Regional Water Supply 
System in the State of Montana. I would ask that my entire 
written statement be made part of the record.
    Mr. Calvert. Without objection, so ordered.
    Mr. Keys. Mr. Chairman, in considering H.R. 1946, we need 
to look back at Public Law 106-163, the Chippewa Cree Tribe of 
the Rocky Boy's Reservation Indian Reserve Water Rights 
Settlement and Water Supply Enhancement Act of 1999, called the 
Settlement Act. The Settlement Act was supposed to provide a 
fair, equitable, and final settlement of all water right claims 
in Montana by the Chippewa Cree Tribe. Interior strongly 
supports that act and its implementation.
    Reclamation is funding $29 million and the Bureau of Indian 
Affairs is funding $21 million, for a total of $50 million, as 
part of that settlement. These dollars are for multiple 
economic and water development activities on the reservation, 
including $15 million for municipal, rural, and industrial 
water needs of the tribe.
    The Administration supports the goal of assuring a safe and 
reliable water supply for the reservation and other communities 
in north central Montana. We recognize this area is 
historically water short, with water quality and water 
infrastructure concerns. We understand that some of these 
communities are facing safe drinking water standard violations. 
However, we cannot support H.R. 1946 as introduced. We have 
several concerns with that proposed legislation.
    First, Section 2(a)(2) states that the United States has a 
trust responsibility to ensure that adequate and safe drinking 
water supplies are available to meet the needs of the 
reservation. Such provision would cause large problems with 
respect to Federal liability. It would make the United States 
responsible for providing domestic water systems on the 
reservation, something that has not been envisioned prior to 
now.
    Second, the proposed bill would provide an inequitable cost 
share requirement for parties to the construction. It would 
call for perpetual Federal financial and management obligations 
for both construction and operation and maintenance of this 
system. And it would be in conflict with the 1944 Flood Control 
Act in allowing the use of project use power from the Pick 
Sloan Missouri Basin program for nonirrigation purposes.
    Third, H.R. 1946 contains provisions that would replicate 
activities already required and underway under the Settlement 
Act.
    Section 203 of the Settlement Act authorized a regional 
feasibility study for north central Montana. That study is 
underway to evaluate water and related resources in north 
central Montana. It is a comprehensive study that is looking at 
water supply needs by the agricultural, municipal, rural, and 
industrial water users in the area. The appraisal level scoping 
document is scheduled for completion in May of this year, with 
the final planning report and NEPA document to be ready the 
winter of 2004.
    Section 202 of the Settlement Act authorized a municipal, 
rural, and industrial feasibility study to evaluate 
alternatives for water supply for the Rocky Boy's Reservation. 
The tribe released a draft report of that study in July of 
2001, and we are currently working with the tribe to complete 
the study.
    Fourth, several other provisions of H.R. 1946 are 
inconsistent with the Settlement Act. These involve the water 
source for the tribal and nontribal communities; financial 
arrangements for the nontribal organizations; and other 
provisions of Reclamation law.
    And, finally, we are concerned about the strain on 
Reclamation's budget. H.R. 1946 would authorize $180 million to 
be spent on the project. Many times over the last 15 years, 
Reclamation has been put in the awkward position of opposing 
projects that try to solve an untenable situation, that 
millions of Americans still live without safe drinking water.
    Congress has authorized us to develop nearly a dozen 
single-purpose MR&I water supply projects for rural communities 
throughout the West. These projects would cost more than $2 
billion to build, and most were developed from feasibility 
studies with little or no input from Reclamation. In other 
words, we just pass the money along to those organizations. 
While each is different in its terms, many share common problem 
areas: inequitable Federal cost share provisions, and 
responsibility for operation and maintenance.
    We need to work together--the Administration, Congress, the 
States and the stakeholders, to identify these elements of 
minimum requirements which can shape future rural water 
projects into a more viable form. This is a priority for this 
administration, and I look forward to working with the 
Committee and Subcommittee to formulate such a programmatic 
approach.
    Mr. Chairman, in conclusion, the Administration believes 
that H.R. 1946 is premature. I would like to reiterate 
Interior's support for implementing the Rocky Boy's Water 
Rights Settlement Act, and our support for finding a way to 
meet domestic water needs in north central Montana.
    That concludes my statement, and I would certainly stand 
for any questions that you might have.
    [The prepared statement of Mr. Keys follows:]

  Statement of John W. Keys III, Commissioner, Bureau of Reclamation, 
                    U.S. Department of the Interior

    My name is John Keys. I am Commissioner of the U.S. Bureau of 
Reclamation. I appreciate the opportunity to provide the 
Administration's views on H.R. 1946, legislation to require the 
Secretary of the Interior to construct the Rocky Boy's/North Central 
Montana Regional Water System, in the State of Montana.
    The Administration supports the goal of assuring a safe and 
reliable water supply for both the reservation and the non-reservation 
communities in north-central Montana. We recognize that north-central 
Montana is an historically water-short basin, with water quality and 
water infrastructure concerns. We understand some of these communities 
may be facing Safe Drinking Water standard violations. However, the 
Administration cannot support H.R. 1946, as introduced, because it 
imposes new responsibilities to provide domestic water both to the 
Rocky Boy's Reservation, inconsistent with the recent settlement, and 
to non-Indian communities under provisions that are inconsistent with 
Administration policy.
    In considering H.R. 1946, it is necessary to revisit briefly Public 
Law 106-163, the Chippewa Cree Tribe of the Rocky Boy's Reservation 
Indian Reserved Water Rights Settlement and Water Supply Enhancement 
Act (Settlement Act). The purposes of the Settlement Act are to achieve 
a ``fair, equitable and final settlement of all claims to water rights 
in the State of Montana for the Chippewa Cree Tribe.'' The Department 
has been strong in its support of the Settlement Act and its 
implementation; Reclamation is authorized to fund $29 million and the 
Bureau of Indian Affairs is authorized to fund $21 million for a total 
settlement of $50 million. These monies are for multiple economic and 
water development activities on the reservation, and include $15 
million for municipal, rural and industrial water needs of the Tribe.
    We have numerous concerns with H.R. 1946: first, the ``Finding'' of 
section 2(a)(2)-- which states that the United States has a trust 
responsibility to ensure that adequate and safe water supplies are 
available to meet the needs of the Reservation. As written, H.R. 1946 
indicates that Congress intends to make the United States responsible 
for providing domestic water systems on the Reservation, including 
potential liability for money damages if such duty is not met. This 
commitment could have serious adverse legal consequences with respect 
to Federal liability.
    The Administration also has concerns about (1) the strain on 
Reclamation's current budget; (2) the inequitable cost share 
requirement; (3) the potentially perpetual Federal financial and 
management obligation for both construction and for operating and 
maintaining the system; and (4) the proposed use of project use power 
from the Pick Sloan Missouri Basin Program (PSMBP) for non-irrigation 
purposes. I will submit separately a more detailed analysis of these 
and related technical issues.
    Several provisions in H.R. 1946 are inconsistent with the 
Settlement Act and Reclamation policy. For example, the Settlement Act 
recognized a Tribal right to a 10,000 acre-feet per year permanent 
allocation from Reclamation's Tiber Reservoir (Lake Elwell), without 
cost to the Tribe. Thus, under the Settlement Act, costs incurred by 
the Federal Government for the design and construction of the reservoir 
are not passed on to the Tribe, nor is an annual operations and 
maintenance charge assessed, which is otherwise standard procedure 
under Reclamation Law (via water service and repayment contracts). H.R. 
1946 is not clear what the water source would be for the pipeline. Any 
authorization should provide that the tribal supply will be the 10,000 
acre-feet Tiber allocation already held by the Tribe. If future 
supplies for the non-tribal communities are to come from Tiber water, 
the beneficiaries should pay their proportionate capital costs for the 
reservoir and the pipeline, as well as operation and maintenance costs. 
Across the 17 western states, current municipal & industrial (M&I) 
beneficiaries at Reclamation reservoirs pay these costs, and with 
interest.
    Two other examples of how H.R. 1946 is inconsistent with the 
Settlement Act pertain to the extent of Federal financial 
responsibility. Section 201(d) of the Settlement Act states explicitly 
that ``The United States shall have no responsibility or obligation to 
provide any facility for the transport of water allocated by this 
section to the Rocky Boy's Reservation or to any other location. Except 
for the contribution set forth in section 105(a)(3), the cost of 
developing and delivering the water allocated by this title or any 
other supplemental water to the Rocky Boy's Reservation shall not be 
borne by the United States'' (emphasis added). In contrast, H.R. 1946 
places the total cost of the tribal portion of the system on the United 
States, including the upsizing necessary to serve the North Central 
Montana Water Authority.
    With regard to the Rocky Boy's Reservation needs, the Settlement 
Act authorizes $15 million for the planning, design, construction, 
operation, maintenance, and replacement of a future water supply system 
for the Reservation. Sec. 105(a)(3) of the Act states that these funds 
are ``for the total Federal contribution'' (emphasis added) to such a 
system. In contrast, H.R. 1946 would authorize the Secretary of the 
Interior to assist the Chippewa Cree Tribe on the Rocky Boy's Indian 
Reservation to plan, design, construct, operate, maintain, and replace 
the Rocky Boy's Rural Water System. In addition, it would authorize 
Federal assistance to the North Central Montana Regional Water 
Authority for the planning, design, and construction of the non-core 
rural water system off the reservation. The bill would authorize 
appropriations of at least $120 million for the core system on the 
Rocky Boy's Indian Reservation (not including the Federal obligation 
for operations, maintenance and replacement (OM&R)). Further, H.R. 1946 
would authorize at least $60 million for the non-core system that 
provides water deliveries to areas that are not on the 
reservation.Finally, H.R. 1946 contains provisions that replicate 
activities already required--and underway--under the Settlement Act. 
Section 203 of the Settlement Act authorizes a regional feasibility 
study for North Central Montana. Since the rural water project proposed 
by H.R. 1946 is a smaller portion of the region encompassed by the 
study, we believe that consideration of H.R. 1946 is premature until 
the regional feasibility study is final. Further, other Indian water 
rights settlements in the basin are being negotiated. Until those 
settlements are concluded, it is not clear what the relative demands 
and needs of the basin will be. The regional feasibility study to be 
conducted under section 203 of the Settlement Act will produce a 
comprehensive analysis of the region's water needs, and will provide 
Congress with an informed context as it considers legislation on 
further rural water development in north-central Montana.
    Also, Section 202 of the Settlement Act authorized a municipal, 
rural, and industrial study requiring that multiple alternatives be 
brought forward at the feasibility level, so all parties to the 
settlement could make informed decisions. To implement section 202 of 
the Act, the Tribe released a draft feasibility study in July 2001, and 
Reclamation is working with the Tribe to complete the study. 
Reclamation emphasizes that the intent of Section 202--a thorough 
evaluation of the feasibility of multiple alternatives--must first be 
met, so decision makers can make informed decisions.
    Previous efforts to address the water needs of rural communities 
have taken a piecemeal approach, without a programmatic basis. This has 
resulted in a number of common problems. The authorized Federal cost-
shares have been inequitable, and the authorized Federal obligations 
for facility operations and maintenance are unsustainable. 
Additionally, expectations on the part of communities with authorized 
projects become frustrated because of delays due to inadequate 
available resources. I suggest a more comprehensive approach. We need 
to work together--the Administration, the Congress, the States, and the 
stakeholders--to provide safe drinking water for rural America. We need 
to identify the appropriate Federal and non-Federal roles in providing 
this water, to evaluate the appropriate role to be played by the 
numerous Federal and non-Federal agencies involved with developing 
municipal, residential, and industrial water in rural and small-town 
America. This is a priority for me and this Administration. I look 
forward to working with the Committee and Subcommittee to formulate a 
programmatic approach to rural water issues.
    In conclusion, Mr. Chairman, the Administration believes that H.R. 
1946 is premature. However, I would like to reiterate the Department's 
support for implementing the Rocky Boy's Water Rights Settlement Act as 
well as our support for finding a way to meet the domestic water supply 
needs of north-central Montana. As such, we would like to work with Mr. 
Rehberg and the rest of the Montana delegation, the Committee, the 
Tribe, and the project sponsors to work through these difficult issues 
in a manner that addresses the needs of Montana and the interests and 
concerns of the Department.
    This concludes my statement, I would be pleased to answer any 
questions.
                                 ______
                                 
    Mr. Calvert. I thank the gentleman.
    Before we start our questions, Mr. Cannon wanted to have an 
opening comment regarding his legislation. Mr. Cannon, you are 
recognized.
    Mr. Cannon. Mr. Chairman, if I could just submit my opening 
statement for the record, I would appreciate that, and I do 
have a couple of questions.
    [The prepared statement of Mr. Cannon follows:]

 Statement of The Honorable Chris Cannon, a Representative in Congress 
                         from the State of Utah

    Thank you, Mr. Chairman, for holding this hearing. I am grateful 
for the opportunity to discuss the future of water in my home state. I 
also want to thank the witnesses that are here today for their 
willingness to testify on this important issue. It is my hope that 
today's hearing will serve as a forum to discuss how water will be 
managed in central Utah.
    In Utah, as in most western states, water is a valuable and rare 
resource. It is a constant challenge for the state to determine how and 
where our limited supply of water should be used. Indeed, some of the 
most difficult and important decisions we make today are how water 
should be allocated. H.R. 4129 will help move us in the right direction 
by providing CUP with the necessary flexibility to meet the existing 
and future water needs of the state.
    This bill modifies reimbursement costs for investigation of certain 
power features in the Bonneville unit. It also modifies the repayment 
schedule for CUP projects. This bill will give CUP the opportunity to 
fund projects that have been promised but not yet constructed.
    It is important to note that this bill does not add any additional 
authorization to the Central Utah Project. Rather, it enables the CUP 
to take money granted under previous Central Utah Project Completion 
Act (CUPCA) authorizations and to redirect it to other needed water 
projects.
    I want all my constituents to know that I am more than willing to 
work with them to craft satisfactory language on these technical and 
difficult water bills.
    I thank you Mr. Chairman and I look forward to hearing from the 
witnesses. I yield back the balance of my time.
                                 ______
                                 
    Mr. Calvert. Certainly we are going to have questions, so 
we will go ahead and recognize Mr. Rehberg first, and then we 
will be recognizing Mr. Cannon.
    Mr. Rehberg. Thank you, Mr. Chairman.
    A question for you, Mr. Keys, and that is, in your 
testimony you talk about a multi-agency approach, and that we 
should work together and we will formulate an approach. That is 
all good and fine, but the EPA has established that a least two 
of communities, Hill County and the reservation themselves, are 
out of compliance and they are in like deep doo-doo at the end 
of this year.
    What are we going to do? Is your multi-agency approach 
going to be such that the Bush administration is going to be 
willing to back the EPA off of their standards for the period 
of time while we all get together and come up with this multi-
agency approach?
    Mr. Keys. Mr. Chairman, Mr. Rehberg, I don't know anything 
we can do by the end of this year to help them be in 
compliance. The studies that we are calling for here take 
several years to get done, and a deadline of the end of this 
year is not realistic for any of us right now.
    Mr. Rehberg. Well, if it is not realistic, then I would 
assume that the Bush Administration would be willing to go on 
record today saying that they would support legislation to back 
the EPA off of their noncompliance requirements?
    Mr. Keys. Mr. Chairman, Mr. Rehberg, that is much beyond 
the Commissioner of Reclamation to make that decision.
    Mr. Rehberg. Well, see, that is the problem, Mr. Keys. You 
know, we have people up there that do not have clean drinking 
water according to the standards. They don't even have the 
supply.
    So if the Administration is going to come in and oppose 
legislation that is trying to solve the problem, where do we 
go? What do we tell these people? Or can we just start shutting 
other people's water off to show them what it is like to live 
without water.
    And I don't know if you have seen this water, but they have 
competitions as to who has got the worst up there. That is not 
a very good competition for the U.S. Government to want to 
endorse.
    Mr. Keys. Mr. Chairman, Mr. Rehberg, as I said in my 
testimony, we have about $2 billion worth of rural water supply 
projects already authorized, that are probably in front of 
these even if it is authorized. And certainly my annual budget 
does not allow immediate response to those. Now, we put them in 
line and we deal with them as we can.
    Mr. Rehberg. Mr. Chairman, I just go back to my earlier 
statement, then. If we are going to have a multi-agency 
approach and we are going to work together and we are going to 
formulate things together, it seems like one Federal agency 
ought to talk to the other one and tell EPA that we cannot meet 
the standards. And if we can't meet the standards, what are we 
going to do?
    Thank you.
    Mr. Calvert. I thank the gentleman
    Mr. Cannon?
    Mr. Cannon. Thank you, Mr. Chairman.
    It feels like home here. I look over the audience. We have 
got City Council, we have got people from the Central Utah 
Project, we have got people from the Strawberry Water Users 
Association, we have got mayors from the towns in the area. 
First of all, we would like to welcome you all out here, and 
thank you for coming.
    I just wanted to say at this point, Mr. Raley, we 
appreciate your commitment for your personal attention on this 
matter. This is an important matter that we need to push very 
quickly, and as problems come up, we appreciate your 
willingness to work with us on that.
    And having said that, Mr. Chairman, I yield back.
    Mr. Calvert. I thank the gentleman.
    We have one vote, so I would suggest we recess, vote, and 
we will come back and invite our other panels. Our first panel, 
thank you for your testimony and for answering our questions. 
You are excused, and we will look forward to the other panels 
when we return. Thank you.
    [Recess.]
    Mr. Calvert. The hearing will come to order.
    First I want to apologize. That is the way business is in 
this town. I believe that was the last vote of the day, so we 
shouldn't have any other interruptions.
    I would like to introduce our second panel: Don 
Christiansen, the General Manager of the Central Utah Water 
Conservancy District; Randy A. Brailsford, Mayor of Salem City, 
State of Utah; Margaret Peterson, Council Member, West Valley 
City Council; Leslie James, Executive Director, Colorado River 
Energy Distributors Association, Bob McMullin, President of the 
Strawberry Water Users Association; and William Boyd Howarth, 
Chairman of the Juab County Commission.
    So, welcome, and again I am going to apologize because I am 
going to leave, but I am going to hand the gavel over to Mr. 
Rehberg who is going to do a very good job at handling this. I 
have to go back to a meeting in my office. So I apologize and 
look forward to reading your testimony later.
    Mr. Rehberg?
    Mr. Rehberg. [Presiding.] All right. Mr. Christiansen?

STATEMENT OF DON A. CHRISTIANSEN, GENERAL MANAGER, CENTRAL UTAH 
                   WATER CONSERVANCY DISTRICT

    Mr. Christiansen. Thank you, Mr. Chairman. I appreciate the 
opportunity to be here today. I am Don Christiansen. I am the 
General Manager of the Central Utah Water Conservancy District, 
and it is a good opportunity for me to be here to testify today 
on a bill to amend the Central Utah Completion Act that 
originally passed Congress as part of the Reclamation Projects 
Authorization and Adjustment Act in 1992. During the 10 years 
since CUPCA became law, the Central Water Conservancy District 
has exercised the unique opportunity to step into the shoes of 
the Bureau of Reclamation and complete the planning, design and 
construction of the Central Utah Project.
    This one-of-a-kind experiment has forced the State of Utah 
and the water users within the 10 counties served by the 
district to examine very closely what kind of a project that 
they needed. After all, under the reforms of the CUPCA, Utah 
taxpayers are paying 35 percent of the construction costs up 
front to complete the project. We have learned much. We have 
tried to be creative and innovative in how we planned the 
features to complete the transbasin diversion of Utah's share 
of the Colorado River water to the populous Wasatch Front. 
While we have made progress, we are not yet complete. Simply 
put, the bill before you provides some fine tuning to the 
original CUPCA authorization to reflect the contemporaneous 
changes to CUP reflecting the current needs of Utah water 
users.
    Chairman Hansen once commented to me that the Central Utah 
Project is the closest thing to eternal life here on earth. 
Well, we hope, Mr. Chairman, that the amendments that we are 
proposing will enable us to complete a project which not only 
creates more supply but, very importantly, which places great 
emphasis on water conservation, water reuse, conjunctive use of 
surface supplies with groundwater resources, and improved 
quality through desalination and reverse osmosis technologies.
    H.R. 4129 amends CUPCA to provide flexibility, allowing for 
the transfer of unused spending authority between CUPCA 
programs. The CUPCA originally authorized the expenditure of 
over $900 million to complete the Central Utah Project. This 
authorization was broken down into numerous feature- or 
program-specific authorizations. These feature- or program-
specific authorization levels were based upon original 
estimates from the Bureau of Reclamation, some of which were 
made in the first draft 1964 Definite Plan Report.
    And I am sure it will come as no surprise that the project 
we are building has changed substantially from the one planned 
by Reclamation in 1964. In fact, CUPCA itself deauthorized a 
list of certain project features. However, the act did nothing 
to dispose of Reclamation's investigation costs for those 
deauthorized projects. H.R. 4129 will clean up the books, so to 
speak, by making them nonreimbursable.
    Since 1992, the district has reformulated the CUP in a 
number of significant ways. Several project features, including 
the irrigation and drainage system, have been eliminated, and 
other programs have been redesigned to be more cost-effective. 
In addition, CUPCA's water conservation program has met with 
tremendous acceptance and is expected to fully utilize its 
program-specific authorization very soon.
    The district's program to purchase water rights to meet 
minimum stream flows is also in need of additional funding. 
Further, certain water delivery features such as the Diamond 
Fork System have been redesigned to eliminate a controversial 
Monks Hollow Dam. But because of underground tunnel 
construction problems, this redesign has increased the overall 
cost of the Diamond Fork System beyond the authorization limit 
contained in the CUPCA.
    H.R. 4129 amends the authority given to the Secretary of 
Interior in Section 202(c) of the CUPCA to redirect unexpended 
budget authority to water conservation projects, water rights 
acquisition, and other specifically authorized project features 
in Title II of the CUPCA. But I want to emphasize now that H.R. 
4129 does not increase the total authorization for the Central 
Utah Project.
    H.R. 4129 eliminates type-of-use limitations in the CUPCA 
which restrict the district's planning of project features. And 
I want to emphasize that the district still intends to work 
with water users from all 10 counties to develop projects which 
will deliver to them the benefits of an enhanced water supply.
    As I indicated previously, CUPCA also transferred 
construction responsibility for CUP from the Bureau of 
Reclamation to the Central Utah Water Conservancy District, 
which is the State sponsoring agency for the project. Oversight 
of the district's planning and construction activities is 
provided by the Department of Interior.
    The legislation would clarify the responsibilities of the 
Secretary of Interior with respect to the Central Utah Project. 
This language would ensure that the highly effective 
administrative arrangement now in place would be allowed to 
continue. In addition, because from time to time the district 
has over the past 10 years asked for assistance from the Bureau 
of Reclamation, the legislation would authorize a pilot program 
to be developed between Reclamation and the district to enable 
an increased opportunity for Reclamation to assist the district 
and the Assistant Secretary in carrying out completion of the 
project.
    Finally, H.R. 4129 would provide for prepayment of 
repayment contracts with municipal and industrial water 
delivery facilities, and eliminate a 2002 deadline for such 
prepayment. This small change would allow the districts to pay 
off their contracts more quickly.
    That completes my statement, and I would be more than happy 
to address any questions that the Committee may have.
    [The prepared statement of Mr. Christiansen follows:]

 Statement of Don A. Christiansen, General Manager, Central Utah Water 
                   Conservancy District, on H.R. 4129

    Mr. Chairman, thank you for the opportunity to testify today on a 
bill to amend the Central Utah Project Completion Act, (CUPCA) which 
originally passed Congress as part of the Reclamation Projects 
Authorization And Adjustment Act of 1992, (P.L. 102-575). During the 
ten years since CUPCA became law, the Central Utah Water Conservancy 
District has exercised the unique opportunity to step into the shoes of 
the Bureau of Reclamation and complete the planning, design and 
construction of the Central Utah Project (CUP).
    This one-of-a-kind experiment has forced the State of Utah and the 
water users within the ten counties served by the District to examine 
very closely exactly what type of project we needed. After all, under 
the reforms of CUPCA, the Utah taxpayers are paying 35% of the 
construction costs to complete the project. We have learned much. We 
have tried to be creative and innovative in how we planned the features 
to complete the transbasin diversion of Utah's share of Colorado River 
water to the populous Wasatch front. While we have made progress, we 
are not yet complete. Simply put, the bill you have before you provides 
some fine tuning to the original CUPCA authorization to reflect the 
contemporaneous changes to CUP reflecting the current needs of Utah's 
water users.
    Chairman Hansen once told me that the Central Utah Project is the 
closest thing to eternal life on earth. Well, we hope Mr. Chairman, the 
amendments we are proposing will enable us to complete a project which 
not only creates more supply, but one which also places greater 
emphasis on water conservation, wastewater reuse, conjunctive use of 
surface water supplies with groundwater resources and improved water 
quality through desalination and reverse osmosis technologies.
    H.R. 4129 amends CUPCA to provide flexibility allowing for the 
transfer of unused spending authority between CUPCA programs. CUPCA 
originally authorized the expenditure of over $900 million to complete 
the Central Utah Project (CUP). This authorization was broken down into 
numerous feature or program specific authorizations. These features or 
program specific authorization levels were based upon original 
estimates from the Bureau of Reclamation, some of which were first made 
in the draft 1964 Definite Plan Report. I am sure it will come as no 
surprise that the project we are building has changed substantially 
from the one planned by Reclamation in 1964. In fact, CUPCA itself de-
authorized a list of certain project features; however, the Act did 
nothing to dispose of Reclamation's investigation costs for those de-
authorized projects. H.R. will clean up the books, so-to-speak, by 
making them non-reimbursable.
    Since 1992, the District has reformulated the CUP in a number of 
significant ways. Several project features including the irrigation and 
drainage system have been eliminated and other programs have been 
redesigned to be more cost effective. In addition, CUPCA's water 
conservation program has met with great acceptance and is expected to 
fully utilize its program specific authorization. The District's 
program to purchase water rights to meet minimum stream flow needs is 
also in need of additional funding. Further, certain water delivery 
features such as the Diamond Fork System have been redesigned to 
eliminate the controversial Monks Hollow dam. Because of underground 
tunnel construction problems, this redesign has increased the overall 
cost of the Diamond Fork System beyond the authorization limit 
contained in CUPCA.
    H.R. 4129 amends the authority given to the Secretary of the 
Interior in Section 202 (c) of CUPCA to redirect unexpended budget 
authority for water conservation projects, water rights acquisition, 
and other specifically authorized project features in title II of 
CUPCA. I want to emphasize that H.R. 4129 does not increase the total 
authorization for the Central Utah Project.
    H.R. 4129 also eliminates geographic and type-of-use limitations in 
CUPCA which restrict the District's planning of project features to the 
delivery of water to only Utah and Juab Counties. I want to emphasize 
that notwithstanding this change in the law, the District still intends 
to work with the water users from those two counties to develop a 
project which will deliver to them the benefits of an enhanced water 
supply.
    As I indicated previously, CUPCA also transferred construction 
responsibility for CUP from the Bureau of Reclamation to the Central 
Utah Water Conservancy District, the state sponsoring agency for the 
project. Oversight of the District's planning and construction 
activities is provided by the Department of the Interior.
    The legislation would clarify the responsibilities of the Secretary 
of the Interior with respect to the Central Utah Project. This language 
would ensure that the highly effective administrative arrangement now 
in place would be allowed to continue. In addition, because from time 
to time the District has, over the past ten years, asked for assistance 
from the Bureau of Reclamation, the legislation would authorize a pilot 
program to be developed between Reclamation and the District to enable 
increased opportunity for Reclamation to assist the District and the 
Assistant Secretary in carrying out completion of the project.
    Finally, H.R. 4129 would provide for prepayment of repayment 
contracts for municipal and industrial water delivery facilities, and 
eliminate a 2002 deadline for such prepayment. This small change would 
allow the water districts to pay off their contracts more quickly. 
Thank you.
                                 ______
                                 
    Mr. Rehberg. Thank you very much. As a result of my 
butchering your name, I let you go over the limit. I apologize 
for that. He had even spelled out the pronunciation and I still 
got it wrong.
    [Laughter.]
    Mr. Rehberg. If the witnesses will notice, there is a 
timepiece on your table. If you could kind of follow that, that 
would be helpful. We have a gentleman on the next panel who has 
a plane to catch, and I will be sensitive to his time as well.
    So next would be Mr. Brailsford, Mayor of Salem City, State 
of Utah.

 STATEMENT OF THE HONORABLE RANDY A. BRAILSFORD, MAYOR, SALEM 
                           CITY, UTAH

    Mr. Brailsford. Thank you. You got that right.
    Mr. Rehberg. Thank you.
    Mr. Brailsford. So I can't go over?
    Mr. Rehberg. You cannot go over.
    Mr. Brailsford. My name is Randy Brailsford. I am the Mayor 
of Salem City, and also the Chairman of the South County Mayors 
Group which represents 10 communities in south Utah County. 
South Utah County is about 60 miles south of Salt Lake City. 
And we are here today to talk on this bill and to ask for maybe 
just a little bit more.
    We respect our constituents at the grass level. Therefore, 
our solemn obligation is to see to the future needs of our 
children and our grandchildren. Quoting from Parley R. Neeley 
from June 1948, ``It will not be possible, when traveling from 
Salt Lake City to Nephi, to tell where one city ends and 
another begins.'' These are dreams of our old mean and the 
visions of our young men who may actually behold them.
    Our community covers about 200 square miles. We are one of 
the fastest growing communities in Utah. Six percent is the 
lowest figure, and some cities within our 10 mayors group have 
grown at 12, 12.5 percent over the last 6 years.
    Our 10 communities have been trying to plan for the future 
of our residents well into the future. We have organized an 
interlocal association called the South Valley Municipal Water 
Agency, or SUVMWA, to organize and plan for the future water 
needs of our communities.
    This group has been very much involved with the Department 
of the Interior and the Central Utah Conservancy District, 
trying to contract for our future water needs. We have 
negotiated a contract for 1,500 acre feet of Central Utah 
Project water, and we were very close to signing a contract for 
an additional 9,610 acre feet of water. The contract got 
backtracked, though, and has not been completed to this date.
    We recently received a letter from Governor Leavitt asking 
all citizens in the State to start conserving water. We have 
actually got one of our cities that has a well that has gone 
dry. I have had a moratorium in my city, in Spanish Fork, since 
last year for no more new subdivisions due to water shortage as 
it is in the summer months.
    It is critical to our residents that water be available to 
south Utah Valley. Attached is a map of the earlier SFN project 
showing the pipeline that was expected and planned for. Future 
water for both indoor and outdoor use is dependent on this 
project and the water it would provide.
    The city is very concerned with how much underground water 
can be used in our area. There are a lot of wetlands in our 
area and there are ponds, and we are very concerned that by 
using so much of the ground surface water, that wetlands will 
be going dry, the habitat will be dying, as well as ponds will 
be reduced in level. So there is much concern of using that 
versus this other.
    Having the pipelines from Strawberry Reservoir to our area 
will give us the pressure we need for water in our pressurized 
irrigation systems. We have saved considerable power 
consumption in not having to pump the system. We firmly believe 
that CUP will be vital to the well-being of our environment.
    We can't see, where we planned on for over 50 years now to 
generate pipelines and introduce water into the Utah Valley, 
put generators on to generate power, and now they are saying, 
well, maybe we ought to start using power to pump. It don't 
make sense. But we are trying to utilize both, as the plan was 
years ago.
    We are much in favor of the Bonneville Unit of the Central 
Utah Project. In fact, we have been looking forward to the 
project and the water it would provide our area for almost 50 
years. Much of our area has already been agriculture and has 
been in need of additional agricultural water. We were 
anticipating that as the agricultural use changed to municipal 
use, so the water could be used for both. Our long term plans 
have been based on the ability to have access to the CUP water.
    We are in favor of the amendment, H.R. 4129, introduced on 
March 20, 2002, with one exception. We would request Section 
202(a)(1)(B) of the Central Utah Project Completion Act (106 
Stat. 4611) be revised to read ``deliver irrigation water to 
lands in the Utah Lake drainage basin and municipal water 
within the Utah Lake drainage basin, exclusive of the features 
identified in Section 201(b).''
    We need to have the facilities to deliver the water once we 
have a contract in place for the water. Pipelines need to be 
completed down to the mouth of the Spanish Fork Canyon and then 
to the south and north with lines serving the 10 cities. Lines 
were originally planned to be installed throughout south Utah 
County to east Juab County.
    These pipelines are part of what we have been planning on 
for a long period of time. Many of the cities have already got 
pressurized irrigation pipes sitting in our cities empty, 
because for 50 years that we have been paying taxes on this and 
the 50 years that we have been promised to get this pipeline 
down the canyon, we have worked with the plans of Interior to 
get this project completed so we can fill those pipelines, and 
now they are saying there may not be a pipeline there. This is 
a big concern.
    Our south Utah cities, like I say, have been paying taxes 
for 50 years on this. And, gentlemen, in 50 years south Utah 
County has not got one damn dime of anything, and now they are 
trying to take the only thing we have hoped to get for 50 
years, that pipeline down that canyon. That is the only source 
where we can get water to provide industry for the children, to 
provide agriculture, to keep the orchards, the fields, active, 
for homes, for growth, to keep our kids in the area, our 
grandchildren in the area to work and build a home.
    And we have planned this also for 50 years, all the 
communities, to build, to work that way, and now, because there 
are some problems with another agency, they are wanting to pull 
this. So we are here to say to you, we will support this bill 
with those changes, but please, if we could get some kind of a 
tax so not all the money leaves there, to help us in those 10 
cities with that pipeline.
    Thank you.
    [The prepared statement of Mr. Brailsford follows:]

           Statement of Randy Brailsford, Mayor, Salem, Utah

    My name is Randy Brailsford. I am the Mayor of the city of Salem, 
Utah. I am also chairman of the South County Mayors Group in Utah 
County. We represent all ten communities in the south half of Utah 
County, located approximately 50 miles south of Salt Lake City. We 
represent our constituents at the grass roots level. It is, therefore, 
our solemn obligation to see to the future needs of our children and 
grandchildren. Quoting from Parley R. Neeley from June 1948 `` It will 
not be possible, when traveling from Salt Lake City to Nephi, to tell 
where one city ends and another begins.'' These are dreams of our old 
men and the visions our young men may actually behold.'' Our 
communities cover an area of about 200 square miles. We are in one of 
the fastest growing areas in the state. We have experienced 
approximately 6% growth per year during the last 6 years. We anticipate 
a population of over 600,000 by 2070. The Bonneville Unit of the 
Central Utah Project is our last chance for additional water to meet 
these projected needs.
    Our ten communities have been trying to plan for the future of our 
residents well into the future. We have organized an interlocal 
association called the South Utah Valley Municipal Water Association 
(SUVMWA) to organize and plan for the future water needs of our 
communities. This group has been very involved with the Department of 
Interior and the Central Utah Water Conservancy District in trying to 
contract for our future water needs. We have negotiated a contract for 
1590 acre feet of Central Utah Project (CUP) water and we were very 
close to signing a contract for an additional 9610 acre feet of CUP 
water. That contract got side-tracked and has not been completed to 
date. We recently received a letter from our Governor dealing with the 
water shortage and how critical conservation will be. This project is 
the only future source of water we have for our area. It is critical to 
our residents that this water be available to south Utah Valley. 
Attached is a map of the earlier SFN project showing the piping that we 
have expected and planned around. Future water for both indoor and 
outdoor use is dependant on this project and the water it would 
provide.
    SUVMWA is very concerned with how much underground water can be 
used in our area and at what point will that development start to 
interfere with the environmental issues such as wet lands and in stream 
flows needed for wildlife and fish. We recently had one of our 
communities well go dry. Other cities have had to drop well pumps much 
deeper to find the water. Other cities have building moratoriums in 
place because of water restrictions.
    Having the pipe lines from Strawberry Reservoir to our area will 
give us the pressure we need for water in our pressure irrigation 
systems and save considerable power consumption in not having to pump 
water into these systems. We very firmly believe the CUP water will be 
vital to the well being of our area environment.
    We are very much in favor of the Bonneville Unit of the Central 
Utah Project. In fact we have been looking forward to the project and 
the water it would provide for our area for almost fifty years. Much of 
our area has been agriculture and has been in need of additional 
agricultural water. We were anticipating that as the agriculture use 
changed to municipal use, so would the use of the water change. All of 
our long term plans have be based on the ability to have access to the 
CUP water.
    We are in favor of the amendments proposed in H. R. 4129 introduced 
on March 20, 2002 with one exception. We would request Section 
202(a)(1)(B) of the Central Utah Project Completion Act (106 Stat. 
4611) be revised to read ``deliver irrigation water to lands in the 
Utah Lake drainage basin and municipal water within the Utah Lake 
drainage basin, exclusive of the features identified in section 201 
(b)''. We need to have facilities to deliver the water once we have the 
contracts in place for the water. Pipe lines need to be completed down 
to the mouth of Spanish Fork Canyon and then to the south and north 
with lines serving the ten cities. Lines were originally planned to be 
installed through south Utah County to east Juab County. These pipe 
lines are part what we have been planning on for a long period of time 
and several of the communities have already install pressurized 
irrigation pipe lines within their area anticipating delivery from the 
CUP pipe lines. Several million dollars have already been spent on 
these systems.
    We appreciate the committee members time and efforts on this very 
vital project to our constituents. We ask for your consideration in 
helping to get this project finally completed.
                                 ______
                                 
    Mr. Rehberg. Thank you.
    Ms. Peterson?

  STATEMENT OF MARGARET PETERSON, COUNCIL MEMBER, WEST VALLEY 
                          CITY COUNCIL

    Ms. Peterson. Thank you, Mr. Chairman. I appreciate the 
opportunity to testify today in support of Representative 
Cannon's bill, which has been cosponsored by the entire Utah 
congressional delegation. I am a senior member of the West 
Valley City Council. West Valley is the second largest city in 
Utah. I also serve as Vice Chair of the Board of Trustees of 
the Jordan Valley Water Conservancy District, which provides 
water to West Valley City and other entities in Salt Lake 
County.
    The Jordan Valley Water Conservancy District's service area 
contains over half of the fastest growing cities in Utah. 
Jordan Valley serves the fast growing cities of West Jordan, 
South Jordan, Riverton, Bluffdale, Draper, Herriman, and 
others. Most of the growth is coming from natural increase. 
These people are largely the children and grandchildren of the 
residents of the more established cities in Salt Lake Valley. 
Our service area is expected to double in population and in 
water deliveries over the next 20 years.
    Jordan Valley District has several requests on file with 
the Central Utah District, requesting assistance in meeting its 
future water needs. We are hoping that the scoping activities 
of the Central Utah Water District's Utah Lake Studies Project 
will show that some central Utah water may be made available 
for Jordan Valley District, which can be delivered to West 
Valley City and other cities in Salt Lake County. We believe 
that the provisions of H.R. 4129 provide much-needed 
flexibility in the Central Utah Project Completion Act to 
enable the Central Utah District to meet its responsibilities 
for completing features which will help meet the water supply 
needs of the future of Salt Lake County.
    Specifically, we endorse the provisions of the bill which 
redirect existing authorizations to meet contemporary and 
immediate water needs. The Jordan Valley District is interested 
in additional water conservation projects, conjunctive use of 
groundwater and surface water, wastewater recycling, and 
possibly the use of reverse osmosis membrane technologies to 
treat highly saline water sources such as Utah Lake.
    With extremely dry soil conditions and low reservoir levels 
this fall, the prospects of a normal water supply for next year 
are very low. Most of the winter's snow may never make it to 
the streams this spring. For these reasons, the Governor has 
called for measures to reduce water consumption immediately. 
The need for conservation of water is very real. We may be 
facing mandatory water restrictions in the coming year.
    With regard to the long term, the time has now come to 
embrace conservation with open arms. We cannot continue to 
sustain growth and economic development without more efficient 
water use. As the second driest State in the Nation, Utah must 
become a model of water conservation, an example to the entire 
Nation of what can be done. Governor Leavitt has called for a 
25 percent reduction in per capita water use throughout the 
State. If we had an hour, I would love to tell you about the 
exciting projects that we are working on.
    We appreciate the willingness of the Central Utah Water 
Conservancy District and the delegation to help us meet this 
goal by providing additional funding which recognizes that 
there may be new and better ways to meet our water supply 
needs. Even with major advances in water conservation, we will 
need to continue developing water and building facilities. 
Because the service area of the Jordan Valley District is 
projected to double in water demand over the next 20 years, we 
will also need new infrastructure.
    As a natural consequence of growth, water will become more 
expensive. The cheap water has already been developed. New 
projects will involve reclamation of contaminated groundwater, 
conversion of low quality agricultural water, and importation 
of water from outside the county.
    Also, new Federal and State water quality standards and 
regulations intended to ensure the quality of water delivered 
through public water systems are adding to the ever-increasing 
cost of water. Environmental mitigations associated with new 
water projects and efforts to sustain endangered species are 
adding new dimensions to the cost of water. Also, as systems 
age, infrastructure must be renewed and replaced to keep 
distribution systems viable. It is estimated that the cost of 
water will increase over 50 percent in the next 10 years.
    I have attached to my testimony the Jordan Valley requests 
for CUP water in comparison to the requests from other areas of 
the district. As you can see, Salt Lake County's need for water 
occurs much earlier than anywhere else in Utah.
    For all these reasons, we strongly support H.R. 4129 as an 
important and vital step to move us forward in our goal to meet 
the water needs of the future. Thank you
    [The prepared statement of Ms. Peterson follows:]

  Statement of Margaret Peterson, Councilwoman, West Valley City, Utah

    Mr. Chairman, thank you for the opportunity to testify today in 
support of Representative Cannon's bill which has been cosponsored by 
the entire Utah Congressional delegation. My name is Margaret Peterson. 
I am a member of the West Valley City Council. West Valley is the 
second largest city in Utah. I also serve as Vice Chair of the Board of 
Trustees of the Jordan Valley Water Conservancy District, which 
provides water to West Valley City and other water entities in Salt 
Lake County. The Jordan Valley Water Conservancy District's service 
area contains over half of the fastest growing cities in Utah. Jordan 
Valley serves the fast-growing cities of West Jordan, South Jordan, 
Riverton, Bluffdale, Draper and Herriman, among others. Most of the 
growth is coming from natural increase. These people are largely the 
children and grandchildren of the residents of more established cities 
in the Salt Lake Valley. Our service area is expected to double in 
population and water deliveries over the next 20 years.
    Jordan Valley Water Conservancy District has several requests on 
file with the Central Utah Water Conservancy District requesting 
assistance in meeting its future water needs. We are hoping that the 
scoping activities of Central Utah Water Conservancy District's Utah 
Lake Studies Project will show that some Central Utah water may be made 
available for Jordan Valley Water Conservancy District which could be 
delivered to West Valley City and other cities in Salt Lake County. We 
believe that the provisions of H.R. 4129 provide much needed 
flexibility to the Central Utah Project Completion Act (CUPCA) to 
enable the Central Utah District to meet its responsibilities to 
complete features which can help meet the water supply needs of the 
future of Salt Lake County.
    Specifically, we endorse the provisions of the bill which redirect 
existing authorizations to meet contemporary and immediate water needs. 
The Jordan Valley District is interested in additional water 
conservation projects, conjunctive use of groundwater and surface 
water, wastewater recycling and possibly the use of reverse osmosis 
membrane technologies to treat highly saline water sources such as Utah 
Lake.
    With extremely dry soil conditions and low reservoir levels this 
fall, the prospects of a normal water supply for next year are very 
low. Most of this winter's snow may never make it to the streams this 
spring. For these reasons, the Governor has called for measures to 
reduce water consumption immediately. The need for conservation of 
water is very real. We may be facing mandatory water restrictions in 
the coming year.
    With regard to the long term, the time has now come to embrace 
conservation with open arms. We cannot continue to sustain growth and 
economic development without more efficient water use. As the second 
driest state in the nation, Utah must become a model of water 
conservation, an example to the entire nation of what can be done. 
Governor Leavitt has called for a 25 percent reduction in per-capita 
water use throughout the state.
    We appreciate the willingness of the Central Utah Water Conservancy 
District and the delegation to help us meet this goal by providing 
additional funding which recognizes that there may be new and better 
ways to meet our water supply needs.
    Even with major advances in water conservation, we will need to 
continue developing water and building facilities. Because the service 
area of the Jordan Valley Water Conservancy District is projected to 
double in water demand over the next 20 years we will need new 
infrastructure. As a natural consequence of growth, water will become 
more expensive. The cheap water has already been developed. New 
projects will involve reclamation of contaminated groundwater, 
conversion of low-quality agricultural water, and importation of water 
from outside the county. Also, new Federal and state water quality 
standards and regulations intended to insure the quality of water 
delivered through public water systems are adding to the ever-
increasing costs of water. Environmental mitigations associated with 
new water projects and efforts to sustain endangered species are adding 
new dimensions to the cost of water. Also, as systems age, 
infrastructure must be renewed and replaced to keep distribution 
systems viable. It is estimated that the cost of water will increase 
over 50 percent over the next 10 years. I have attached to my testimony 
the Jordan Valley requests for CUP water in comparison to the requests 
from other areas of the District. As you can see, Salt Lake County's 
need for water occurs much earlier than anywhere else in Utah. For all 
these reasons we strongly support H.R. 4129 as an important and vital 
step to move us forward in our goal to meet the water needs of the 
future. Thank you.



[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
    Mr. Rehberg. Thank you, Ms. Peterson.
    Ms. James?

 STATEMENT OF LESLIE JAMES, EXECUTIVE DIRECTOR, COLORADO RIVER 
                ENERGY DISTRIBUTORS ASSOCIATION

    Ms. James. Thank you, Mr. Chairman, members of the 
Subcommittee. I am Leslie James, Executive Director of the 
Colorado River Energy Distributors Association, or CREDA. I 
appreciate the opportunity to appear before you today in 
support of H.R. 4129, and ask that my entire written statement 
be made part of the record.
    Mr. Rehberg. Without objection.
    Ms. James. CREDA is a nonprofit organization representing 
155 consumer-owned electric systems that all purchase Federal 
hydropower and resources of the Colorado River Storage Project. 
We represent our members in dealing with the Bureau of 
Reclamation, as the generating agency of the CRSP, and the 
Western Area Power Administration, as the marketing agency of 
the CRSP. CREDA members are all nonprofit organizations serving 
nearly 3 million electric consumers in the six western States 
of Arizona, Colorado, Nevada, New Mexico, Utah, and Wyoming.
    Our interest in this legislation stems from the fact that, 
as Mr. Cannon mentioned, the Central Utah project is a 
participating project of the CRSP. Repayment of the Federal 
investment of the CRSP has been the responsibility of the CRSP 
power contractors for 30 years. The rates charged to our 
members repay all of the Federal investment in generation and 
transmission facilities, with interest; all related operation 
and maintenance expenses; environmental costs.
    In addition, the CRSP customers are paying over 95 percent 
of the cost of the irrigation features of the CRSP. In fact, in 
the current CRSP rate, approximately 35 percent of the total 
annual revenue requirement is due to irrigation assistance. 
These contracts are not fixed costs. They allow for rate 
adjustments in order to ensure repayment of the Federal 
investment in the CRSP.
    In fact, we are currently in the midst of a rate adjustment 
process which could result in an increase of 30 percent to the 
CRSP rate. As the Subcommittee is aware, the western 
electricity market has been extremely volatile over the recent 
past couple of years. As a result, CREDA and our members are 
scrutinizing every expenditure to keep costs as low as possible 
for their consumers. CREDA, representing our members, works 
with the Bureau and with Western through a 1992 contractual 
arrangement in an attempt to mitigate rate increases.
    Our support of H.R. 4129 focuses on two provisions of the 
bill. The first regards treatment of costs that have been 
expended by the Bureau for studies of features of the CUP that 
will not be constructed by the Federal Government. CREDA 
believes costs such as these should be nonreimbursable and 
nonreturnable, meaning that they would not be paid by CRSP 
power customers. Section 1(a) of H.R. 4129 provides that 
assurance.
    Second, CREDA understands the Central Utah Water 
Conservancy District's desire to continue its relationship with 
the Secretary. Likewise, CREDA has existing working and 
contractual arrangements with the Bureau, and we believe that 
it is important to ensure that those relationships are 
maintained. The language of Section 1(b)(6) of H.R. 4129 
provides that assurance.
    In summary, CREDA's specific interests in H.R. 4129 relate 
to the CRSP from a financial and ongoing implementation 
standpoint. We encourage timely passage of this bill. We thank 
the Subcommittee for the opportunity of appearing today in 
support of this important legislation.
    [The prepared statement of Ms. James follows:]

 Statement of Leslie James, Executive Director, Colorado River Energy 
                    Distributors Association (CREDA)

    Mr. Chairman, members of the Subcommittee, I am Leslie James, 
Executive Director of the Colorado River Energy Distributors 
Association (CREDA). I appreciate the opportunity to appear before you 
today in support of H.R. 4129.
    Our interest in this legislation stems from the fact that the 
Central Utah Project is a participating project--an irrigation 
project--of the Colorado River Storage Project (CRSP). The CRSP was 
authorized in the Colorado River Storage Project Act of 1956 (P.L. 485, 
84th Cong., 70 Stat. 50), as a multi-purpose Federal project that 
provides flood control; water storage for irrigation, municipal and 
industrial purposes; recreation and environmental mitigation and 
protection, in addition to the generation of electricity. I would first 
like to provide a description of CREDA and its members.
    CREDA is a non-profit organization representing 155 consumer-owned 
electric systems (CRSP power contractors) that purchase Federal 
hydropower and resources of the CRSP. CREDA was established in 1978, 
and serves as the ``voice'' of its members in dealing with CRSP 
resource availability and affordability issues. CREDA represents its 
members in dealing with the Bureau of Reclamation (Bureau), as the 
generating agency of the CRSP, and Western Area Power Administration 
(WAPA), as the marketing agency of the CRSP. CREDA members are all non-
profit organizations, serving nearly 3 million electric consumers in 
the six western states of Arizona, Colorado, Nevada, New Mexico, Utah 
and Wyoming. CREDA members purchase over 85% of the CRSP power 
resource. Attached is a listing of current CREDA members.
    Repayment of the Federal investment of the CRSP has been the 
responsibility of CRSP power contractors for 30 years. This repayment 
is ensured by long-term contracts providing for the purchase of CRSP 
resources. The rates charged to these power contractors repay all of 
the Federal investment in generation and transmission facilities (with 
interest), all power-related operation and maintenance costs, and 
environmental costs. In addition, the CRSP contractors are paying over 
95% of the cost of the irrigation features of the CRSP (those costs 
that are beyond the ability of the irrigators to pay). In fact, in the 
current CRSP rate, 35% of the total annual revenue requirement is due 
to irrigation assistance. These contracts are not fixed cost; they 
allow for rate adjustments in order to ensure repayment of the Federal 
investment in the CRSP.
    When the Federal reclamation projects were begun, they were 
designed, constructed, operated, and maintained by the Bureau of 
Reclamation. The Bureau also owned the transmission system and marketed 
the power from the projects. When WAPA was formed under the Department 
of Energy Organization Act in 1977, the design, construction, 
operation, and maintenance functions remained with the Bureau and the 
transmission system and marketing responsibilities were moved to WAPA.
    Construction and capital projects are funded through the Federal 
Treasury at the interest rate determined by Congress or at the time 
construction starts. These projects go through a budgeting process 
associated with the Federal budget, and money is appropriated for these 
projects with Congressional approval. As revenues are collected for the 
sale of Federal power, there is a priority assigned to payment of 
obligations. The priority of repayment of the projects is that O&M 
expenses for WAPA and the Bureau are paid first and then repayment of 
the highest interest capital investment is made to the Federal 
Treasury. The components associated with the power features are paid 
first, including the appropriate interest, and then the power revenues 
are used to pay the irrigation projects at no interest.
    Each year WAPA compiles a ``power repayment study'' which estimates 
expenses of both the Bureau and WAPA, and is the basis for the CRSP 
rate. After WAPA has completed the power repayment study and if a rate 
adjustment is necessary, a public process is begun. We are currently in 
the midst of this process, which could result in a 30% rate increase. 
As the Subcommittee is aware, the western electricity market has been 
extremely volatile over the recent past couple of years. As a result, 
CREDA members are scrutinizing every expenditure to keep costs as low 
as possible for their consumers. CREDA, representing its members, works 
with the Bureau and WAPA through a 1992 contractual arrangement 
regarding work program and rate treatment issues, in an effort to 
mitigate rate increases.
    CREDA's support of H.R. 4129 focuses on two provisions of the bill. 
The first regards treatment of costs that have been expended by the 
Bureau for studies of features of the CUP that will not be constructed 
by the Federal Government. As an example, during the 1980's, despite 
opposition from the CRSP power contractors, the Bureau explored adding 
a large generation component to the Diamond Fork feature of the CUP. 
Subsequently, the Bureau determined the Federal Government would not 
construct the feature. CREDA believes costs such as these should be 
non-reimbursable and non-returnable, meaning they would not be paid by 
the CRSP power contractors. Section 1(a) of H.R. 4129 provides that 
assurance.
    Secondly, CREDA understands the Central Utah Water Conservancy 
District's desire to continue its relationship with the Secretary. 
Likewise, CREDA has existing working and contractual relationships with 
the Bureau, specifically regarding construction, operation and 
maintenance and rate treatment for the CRSP facilities. CREDA felt it 
necessary to ensure that relationship is maintained. The language of 
Section 1(b)(3) of H.R. 4129 provides that assurance.
    In summary, CREDA's specific interests in H.R. 4129 relate to the 
CRSP from a financial and ongoing implementation standpoint. We 
encourage timely passage of H.R. 4129. We thank the Subcommittee for 
the opportunity of appearing today in support of this important 
legislation.


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
    Mr. Rehberg. Thank you.
    Mr. McMullin?

 STATEMENT OF ROBERT W. McMULLIN, PRESIDENT, STRAWBERRY WATER 
                       USERS ASSOCIATION

    Mr. McMullin. Mr. Chairman, and members of the 
Subcommittee, my name is Robert McMullin. I serve as the 
President of the Strawberry Water Users Association. I 
appreciate the opportunity to address you regarding a topic 
which is very important to the Strawberry Water Users and its 
shareholders.
    I am a third generation farmer, full time farmer. My home, 
my friends, my family, my orchards, and my heart are in south 
Utah County.
    Strawberry is a nonprofit corporation, organized in 1922, 
primarily for the purpose of contracting with the United States 
Bureau of Reclamation to repay the United States the remaining 
unpaid construction costs of the Strawberry Valley Project and 
to provide a water supply to approximately 2,800 Strawberry 
shareholders, including the south Utah County, Utah cities of 
Springville, Mapleton, Genola, Spanish Fork, Salem, an Payson. 
Strawberry repaid to the United States all of the costs of 
construction of the Strawberry Project in 1974.
    The Strawberry Project is a Federal reclamation project 
constructed between 1906 and 1915. The Strawberry provides 
approximately 70,000 acre feet of water to approximately 41,000 
acres of land in south Utah County, Utah. Most lands served by 
the Strawberry have insufficient water.
    Soon after the Central Utah Water Conservancy District 
(District) was formed in 1964 as the local entity that would 
repay the local share of the Central Utah Project, south Utah 
County residents began paying property taxes to support the 
Central Utah Project. Strawberry shareholders, many of them 
struggling family farmers, have been paying those taxes ever 
since. They have yet to see significant CUP benefits.
    Prior to the enactment of the 1992 Central Utah Project 
Completion Act, it was anticipated that Strawberry, the 
district, and the United States would be required to enter into 
an agreement for the operation and maintenance of CUP 
facilities for the benefit of both Strawberry and CUP. Such an 
agreement was signed by the United States, the District, and 
Strawberry in 1991, 1 year before the agreement was mandated by 
Congress. In that contract, Strawberry is first in right for 
61,000 acre feet of water from the reservoir.
    From the beginning of the CUP, it was anticipated that 
south Utah County and east Juab County irrigators would be 
provided CUP water and water infrastructure. Section 202 of the 
CUPCA Act, the section that the District seeks to amend, 
authorized $150 million for the construction of the irrigation 
and drainage system, or in the alternative $125 million for the 
construction of alternate features to deliver irrigation water 
to lands in the Utah Lake drainage basin.
    Central now has said that it will take most of the CUP 
water promised to south Utah and east Juab Counties to Salt 
Lake County, outside the Utah Lake drainage basin. Frankly, 
Strawberry could and would swallow a bitter pill and quietly 
accept the loss of the promised irrigation water, if the 
majority of the authorized $125 million were used to provide 
water conservation and efficiency infrastructure to help south 
Utah County and east Juab County make their very short water 
supply go further. In the process, water quality, safety, and 
environmental concerns could be addressed as well.
    CUWCD is instead before Congress seeking authorization to 
use all of the $125 million originally intended ``for the 
construction of alternate features to deliver irrigation water 
to lands in the Utah Lake drainage basin'' to deliver municipal 
water to Salt Lake County, outside the Utah Lake drainage 
basin. There are essentially two changes to Section 
202(a)(1)(b) of the CUPCA Act which accomplish this.
    First, the words ``to lands in the Utah Lake drainage 
basin'' would be removed from Section 202 to make it clear that 
the authorized funds could be used to deliver water outside the 
Utah Lake drainage basin. Second, the proposed amendment would 
add the word ``municipal'' in front of the word ``irrigation'' 
to make it clear that the authorized funds would be spent on 
municipal irrigation, not agriculture irrigation. These changes 
would completely exclude irrigators, and would in addition give 
Central the discretion to exclude the Utah Lake drainage basin, 
that is, south Utah and east Juab Counties, completely.
    There are four principal reasons that you should reject 
Central's efforts to deny south Utah and east Juab Counties 
Central water and CUP water infrastructure.
    First, solemn promises should be kept. We respectfully 
submit that men and women of character require no further 
discussion of this point.
    Second, section 206 of the CUPCA Act contains a clear 
principle of equity that was intended to protect against unfair 
distributions of CUP benefits. Unfortunately, Congress was so 
certain that south Utah County would be provided CUP benefits, 
that south Utah County falls through a crack in Section 206. 
While the technical language of Section 206 does not apply to 
South Utah County, the principles of equity embodied there 
should be applied in South Utah County.
    Third, a key part of the CUP is the Strawberry/Jordanelle 
exchange. Imported water must be released from the enlarged 
Strawberry Reservoir to Utah Lake to satisfy priority water 
right holders who would otherwise be entitled to waters of the 
Provo River. This makes it possible for Central to lawfully 
store waters of the Provo River in Jordanelle Reservoir. Most 
of the Central water used in the Utah Lake drainage basin will 
not be consumed, but rather will flow to Utah Lake, where it 
can be counted as satisfying a portion of the required 
Strawberry/Jordanelle exchange. This conserves an equal amount 
of water in the enlarged Strawberry Reservoir.
    Last, much of Salt Lake County is dense urban or suburban 
sprawl. What is not already developed on that model appears to 
be largely planned on that model. More water means more of the 
same and greater endless densities. South Utah and east Juab 
Counties have only begun to plan and grow. With CUP water, both 
municipal and agricultural, south Utah and east Juab Counties 
have the opportunity to create small cities near preserved 
agricultural lands.
    We want a place for our children to grow and prosper here, 
not in a larger, more dense Salt Lake Valley metropolis. We 
want to support and save some of the Utah County agricultural 
heritage as well. With improved infrastructure, the Strawberry 
can serve the interest of all south Utah and east Juab County 
residents, farmer and city dweller alike. We ask for that 
opportunity.
    Above all else, we respectfully ask that you keep the 
promises made to those who have supported the Bonneville Unit 
of the CUP, and waited for its benefits for so many decades. We 
thank you very much for your time and careful consideration.
    [The prepared statement of Mr. McMullin follows:]

  Statement of Robert W. McMullin, President, Strawberry Water Users 
                       Association, Payson, Utah

    Mr. Chairman and members of the subcommittee, my name is Robert 
McMullin, I serve as the President of the Strawberry Water Users 
Association (SWUA). I appreciate the opportunity to address you 
regarding a topic which is very important to SWUA and its shareholders.
    Attached is a copy of my resume. My home, my friends and family, my 
orchards and my heart are in south Utah County, Utah.
    SWUA is a nonprofit corporation organized in 1922 primarily for the 
purpose of contracting with the United States Bureau of Reclamation 
(Reclamation) to repay to the United States the remaining unpaid 
construction costs of the Strawberry Valley Project (SVP), and to 
provide a water supply to approximately 2,800 SWUA shareholders, 
including the south Utah County, Utah cities of Springville, Mapleton, 
Genola, Spanish Fork, Salem, and Payson. SWUA repaid to the United 
States all of the costs of construction of the SVP in 1974.
    The SVP is a Federal reclamation project constructed between 1906 
and 1915. The SVP provides approximately 70,000 acre-feet (AF) of water 
to approximately 41,000 acres of land in south Utah County, Utah. Most 
lands served by the SVP have insufficient water.
    Because south Utah County has always been a dry spot in a desert 
state, SWUA and its shareholders have been among the very first, and 
the very strongest, supporters of the Central Utah Project (CUP). The 
following quotes come from pages 16 to 19 of the history of the CUP 
found in the Final Environmental Impact Statement for the Bonneville 
Unit of the CUP (BUEIS):
          Investigation work on the Central Utah Project began soon 
        after the turn of the century under the Reclamation Act of 
        1902. The Strawberry Valley Project, with Strawberry Reservoir 
        as its key feature, was a forerunner of a larger central Utah 
        development soon to be envisioned. Strawberry Reservoir was 
        completed in 1913, and as early as 1919 local municipal and 
        agricultural water users and other leaders who recognized 
        future water requirements in central Utah began considering the 
        possibility of expanding the existing Strawberry Valley 
        Project.
          Investigations on obtaining additional water for the 
        Strawberry Valley Project were begun in the spring of 1945. 
        During the course of these studies, the plan was expanded to 
        cover essentially the same area that was considered in the 
        Colorado River-Great Basin Project, and the name Central Utah 
        Project was given to the Proposal.
    The Central Utah Water Conservancy District (CUWCD) was formed in 
1964 as the local entity that would repay the local share of the CUP. 
Since the mid 1960s, south Utah County residents began paying property 
taxes to CUWCD to support the CUP. SWUA shareholders, many of them 
struggling family farmers, have been paying those taxes ever since. 
They have yet to see significant CUP benefits.
    From the conception of the CUP it was intended that CUP facilities 
would replace certain SVP facilities. The SVP's Strawberry Dam was 
replaced by the CUP's Soldier Creek Dam. The SVP's Strawberry Reservoir 
was replaced by the CUP's Enlarged Strawberry Reservoir. The SVP's 
collection system was replaced by the CUP's Strawberry Collection 
System. The SVP's Strawberry Tunnel was replaced in part by the CUP's 
Syar Tunnel.
    From the very beginning it was clear that without the cooperation 
and support of SWUA and its shareholders there could be no CUP. Again, 
I quote from page 549 of the BUEIS:
          If the necessary operating agreements for storage, exchange, 
        and use of some existing facilities to convey the water to 
        points of use could not be obtained, development of the 
        Bonneville Unit would be terminated at the enlarged Strawberry 
        Reservoir, with no water being exported to the Wasatch Front.
    SWUA gave its support to the CUP, and allowed SVP facilities to be 
replaced by CUP facilities.
    Prior to the enactment of the 1992 Central Utah Project Completion 
Act (CUPCA) it was anticipated that SWUA, CUWCD and the United States 
would be required to enter into an agreement for the operation and 
maintenance of CUP facilities for the benefit of both the SVP and the 
CUP. Such an agreement was signed by the United States, CUWCD and SWUA 
in 1991, one year before the agreement was mandated by Congress. I 
refer you to section <l-arrow>209 of CUPCA.
    From the beginning of the CUP it was anticipated that south Utah 
County and east Juab County irrigators would be provided CUP water and 
water infrastructure. Section 202 of CUPCA, the section CUWCD seeks to 
amend, authorized $150 Million for the construction of the ``Irrigation 
and Drainage System,'' or in the alternative $125 Million ``for the 
construction of alternate features to deliver irrigation water to lands 
in the Utah Lake Drainage basin.''
    During the construction of Jordanelle Reservoir as part of the 
``M&I System,'' a feature of the Bonneville Unit of the CUP, south Utah 
and east Juab County residents were asked to agree to wait to receive 
CUP Bonneville Unit benefits dead last. A solemn promise was made by 
all levels of Federal, state and local officials and leaders that the 
patience, cooperation, support and sacrifice of the south Utah County 
and east Juab County people would never be betrayed. They would never 
be left out of the CUP.
    CUWCD has now said that it will take most of the CUP water promised 
to south Utah and east Juab Counties to Salt Lake County, outside the 
Utah Lake Drainage Basin. Frankly, SWUA could and would swallow a 
bitter pill and quietly accept the loss of the promised irrigation 
water if the majority of the authorized $125 Million were used to 
provide water conservation and efficiency infrastructure to help south 
Utah and east Juab Counties make their very short water supply go 
farther. In the process, water quality, safety and environmental 
concerns could be addressed as well.
    CUWCD is instead before Congress seeking authorization to use all 
of the $125 Million originally intended ``for the construction of 
alternate features to deliver irrigation water to lands in the Utah 
Lake Drainage basin'' to deliver municipal water to Salt Lake County, 
outside the Utah Lake Drainage Basin. Subsection (c) of H.R. 4129 
contains two changes to section 202(a)(1)(B) of CUPCA which accomplish 
this. First, the words ``to lands in the Utah Lake Drainage basin'' 
would be removed from section 202(a)(1)(B) to make it clear that the 
authorized funds could be used to deliver water outside the Utah Lake 
Drainage basin. Second, the proposed amendment would add the word 
``municipal'' in front of the word ``irrigation'' to make it clear that 
the authorized funds would be spent on ``municipal irrigation,'' not 
agricultural irrigation. These changes would completely exclude 
irrigators, and would in addition give CUWCD the discretion to exclude 
the Utah Lake Drainage basin, that is, south Utah and east Juab 
Counties, completely.
    There are four principal reasons why you should reject CUWCD's 
efforts to deny south Utah and east Juab Counties CUP water and CUP 
water infrastructure:
    First, Solemn promises should be kept. We respectfully submit that 
men and women of character require no further discussion of this point.
    Second, section 206 of CUPCA contains a clear principal of equity 
that was intended to protect against unfair distributions of CUP 
benefits. Unfortunately, Congress was so certain that south Utah County 
would be provided CUP benefits that south Utah County falls through a 
crack in section 206. While the technical language of section 206 does 
not apply to south Utah County, the principals of equity embodied there 
should be applied to south Utah County.
    Third, a key part of the CUP is the Strawberry/Jordanelle Exchange. 
Imported water must be released from the Enlarged Strawberry Reservoir 
to Utah Lake to satisfy priority water right holders who would 
otherwise be entitled to the waters of the Provo River. This makes it 
possible for CUWCD to lawfully store waters of the Provo River in 
Jordanelle Reservoir. Most of the CUP water used in the Utah Lake 
Drainage Basin will not be consumed, but rather will flow to Utah Lake, 
where it can be counted as satisfying a portion of the required 
Strawberry/Jordanelle exchange. This conserves an equal amount of water 
in the Enlarged Strawberry Reservoir which would otherwise have to be 
released to Utah Lake for the exchange. Literally, the CUP water used 
in the Utah Lake Drainage Basin can be used at least twice. By 
contrast, if that same water is instead used in Salt Lake County, 
outside the Utah Lake Drainage Basin, no portion of it returns to Utah 
Lake. It can be used only once. Use of the unallocated CUP water in the 
Utah Lake Drainage Basin is literally more than twice as efficient and 
productive, and results in a considerably greater CUP yield. We know of 
no better water reuse and conservation program.
    Lastly, much of Salt Lake County is dense, urban or suburban 
sprawl. What is not already developed on that model appears to be 
largely planned on that model. More water means more of the same and 
greater endless densities. South Utah and east Juab Counties have only 
begun to plan and grow. With CUP water, both municipal and 
agricultural, south Utah and east Juab Counties have the opportunity to 
create small cities near preserved agricultural lands. We want a place 
for our children to grow and prosper here, not in a larger, more dense, 
Salt Lake Valley metropolis. We want to support and save some of south 
Utah County's agricultural heritage as well. With improved 
infrastructure, the CUP can serve the interests of all south Utah and 
east Juab County residents, farmer and city dweller alike. We ask for 
that opportunity.
    Above all else, we respectfully ask that you keep the promises made 
to those who have supported the Bonneville Unit of the CUP, and waited 
for its benefits, for so many decades.
    We thank you very much for your time and careful consideration.
                                 ______
                                 
    Mr. Rehberg. Thank you.
    And Mr. Howarth.

   STATEMENT OF WILLIAM BOYD HOWARTH, CHAIRMAN, JUAB COUNTY 
                           COMMISSION

    Mr. Howarth. Mr. Chairman and Committee members, on behalf 
of Juab County I would like to express our thanks to 
Representative Cannon for his introduction of H.R. 4129, and 
our appreciation to Representative Jim Hansen for his 
unyielding support of Juab County and its residents during his 
many years as our Congressman. Particularly on this issue, the 
Central Utah Water Project, his support has been unwavering and 
constant. We will miss his presence here, since Juab County, at 
least politically speaking, is a 98-pound weakling, and we have 
benefitted from the fact that all these years the strong kid on 
the playground has protected us and taken care of us well.
    From a Juab County perspective, H.R. 4129 makes sense for 
the vast majority of the taxpayers who make up the Central Utah 
Water Conservancy District. However, it has the potential to 
severely damage--that is probably an understatement--it has the 
potential to devastate Juab County's ability to receive water 
from the Central Utah Water Project.
    That notwithstanding, I speak today in favor of H.R. 4129. 
The basis for that support demands, however, an explanation 
which I am happy to give.
    Juab County became a founding member county of the Central 
Utah Water Conservancy District when the district was created 
by judicial decree in March 1964. Juab County joined the 
district because of a representation that it would receive 
much-needed water from the district and from the Federal 
Government, who contracted with each other a year later in 1965 
to bring water to Juab County and the other member counties.
    In 1965 the district proposed a ballot proposition to Juab 
County residents. It proposed a levy to tax property in Juab 
County so that the water could be delivered to the county. The 
ballot proposition received tremendous support because our 
people believed that we would receive the water in exchange for 
the tax. The vote was 964 in favor of that tax to just 17 in 
opposition.
    The residents of our county voted so overwhelmingly in 
favor of the tax because they realized then, as they do now, 
that new water, real wet water flowing from a pipe, not just a 
water right on paper, is what is needed to help Juab County 
blossom into one of Utah's great agricultural counties. Juab 
County possesses wonderful rich land for growing crops. 
Unfortunately, much of it must be dry farmed because there is 
not enough water.
    CUP water flowing through a pipe to Juab County would 
revive the county economically as well as agriculturally. It 
would realize what politicians in Utah have been trying to 
accomplish for more than 40 years, Federally funded water in a 
pipeline that contributes to the greater good.
    Since the tax commenced in 1965, our people have 
continuously paid the tax for water that has always been 
promised, yet never delivered. For 38 years Juab County has 
paid and waited patiently on promise that the water would come. 
We have always believed that it would come, until recently. 
With the political powers of larger communities clamoring for 
CUP water, the residents of Juab County now realize that 
without the benevolence of the politically strong, that the 
county will not simply be a 98-pound weakling but a 98-pound 
weakling whose lunch money has been taken to pay for the lunch 
of another.
    H.R. 4129 allows water to leave Spanish Fork Canyon and 
turn north for use in municipal systems in the Salt Lake 
Valley. That reality makes it very difficult for the district 
to send another pipeline south to those in Juab County who have 
paid these 38 years to have it and its water.
    However, we trust and believe the officials of Central Utah 
Water Conservancy District when they say that they will find a 
way for water to arrive in our county. Our support of this bill 
demonstrates that trust and reliance which we have in the 
officials of the district. We take them at their word, that 
they will find a way to deliver wet water, not just paper 
water, in fulfillment of the district's obligation to Juab 
County.
    If it were not for the assurance of the district, this 98-
pound political weakling would muster the courage to fight this 
bill. Instead, we ask the Committee to support H.R. 4129. Our 
support of this bill, coupled with support from the southern 
Utah County municipalities and Strawberry Water Users 
Association, demonstrates that Utahans from diverse locations 
and interests can and will work together to find solutions for 
all instead of only the politically strong.
    Thank you very kindly for this opportunity to testify to 
the Committee on this day.
    [The prepared statement of Mr. Howarth follows:]

 Statement of William Boyd Howarth, Chairman, Juab County Commission, 
                           Juab County, Utah

    On behalf of Juab County I would like to express our appreciation 
to Representative Jim Hansen for his unyielding support of Juab County 
and its residents during his many years as our congressman. 
Particularly on this issue-the Central Utah Water Project-his support 
has been unwavering and constant. We will miss his presence here since 
Juab County-at least politically speaking-is a 98 pound weakling and we 
have benefitted from the fact that for all these years the strong kid 
on the play ground as protected us and taken care of us.
    From a Juab County perspective, H.R. 4129 makes sense for the vast 
majority of the taxpayers who make up the Central Utah Water 
Conservancy District. However, it has the potential to severely damage-
that's probably an understatement-it has the potential to devastate 
Juab County's ability to receive water from the Central Utah Water 
Project.
    That notwithstanding, I speak today in favor of H.R. 4129. The 
basis for that support demands, however, an explanation which I am 
happy to give.
    Juab County became a founding member county of the Central Utah 
Water Conservancy District when the District was created by judicial 
decree in March, 1964. Juab County joined the District because of a 
representation that it would receive much needed water from the 
District and from the Federal Government who contracted with each other 
a year later in 1.965 to bring water to Juab County and the other 
member counties.
    In 1965 the District proposed a ballot proposition to Juab County 
residents. It proposed to levy a tax on property in Juab County so that 
water could be delivered to the county. The ballot proposition received 
tremendous support because our people believed that we would receive 
water in exchange for the tax. The vote was 964 in favor of the tax to 
just 17 in opposition.
    The residents of our county voted so overwhelmingly in favor of the 
tax because they realized then as they do now that new water-real water 
flowing from a pipe and not just a water right on paper-is what is 
needed to help Juab County blossom into one of Utah's great 
agricultural counties. Juab County possesses wonderfully rich land for 
growing crops. Unfortunately, much of it must be dry farmed because 
there is not enough water. C.U.P. water flowing through a pipe to Juab 
County would revive the county economically as well as agriculturally. 
It would realize what politicians in Utah have been trying to 
accomplish for more than forty years: Federally funded water in a 
pipeline that contributes to the greater good.
    Since the 1965 tax commenced, our people have continuously paid a 
tax for water that has always been promised, yet never delivered. For 
38 years Juab County has payed and waited patiently on the promise that 
water would come. We have always believed it would come-until recently. 
With the political powers of larger communities clamoring for C.U.P. 
water, the residents of Juab County now realize that without the 
benevolence of the politically strong, that the county will not simply 
be a 98 pound weakling, but a 98 pound weakling whose lunch money has 
been taken to pay for the lunch of another.
    H.R. 4129 will allow water to leave Spanish Fork Canyon and turn 
north for use in municipal systems in the Salt Lake Valley, That 
reality makes it very difficult for the District to send another 
pipeline south to those in Juab County who have paid for 38 years to 
have it and its water, However, we continue to trust and believe the 
officials of the Central Utah Water Conservancy District when they say 
that they will find a way for water to arrive in our county. Our 
support of this bill demonstrates that trust and reliance which we have 
in the officials of the District. We take them at their word that they 
will find a way to deliver ``wet water'' and not just ``paper water'' 
in fulfillment of the District's obligation to Juab County, If it were 
not for the assurances of the District, this 98 pound political 
weakling would muster the courage to fight this bill,
    Instead, we ask the committee to support H.R. 4129, Our support of 
this bill, coupled with the support from the Southern Utah County 
municipalities and the Strawberry Water Users Association demonstrates 
that Utahns from diverse locations and interests can and will work 
together to find solutions for all instead of only the politically 
strong.
    Thank you,
                                 ______
                                 
    Mr. Rehberg. Thank you, Mr. Howarth, and panel members. Are 
there questions? Mr. Cannon.
    Mr. Cannon. Thank you, Mr. Chairman. I would like to first 
thank our panel members for coming out, Mr. Christiansen, Mayor 
Brailsford, Ms. Peterson, Ms. James, Mr. McMullin, and 
Commissioner Howarth. We appreciate your comments on this.
    We also have with us today the County Attorney from Juab 
County, David Leavitt, and we have at least four members of the 
board of the Strawberry Water Users here today. Marcus Faust is 
also here with us, and I have probably missed somebody. Ron 
Johnston is also here. So we have a number of people from Utah 
here today. We are pleased that you could all make this.
    I apologize for being in and out. I have some other 
business that is going on. We are reorganizing the Immigration 
and Naturalization Service tomorrow, and we are working hard on 
getting that right before we get the rule out later on this 
afternoon, and so I apologize for coming in a little late, Mr. 
Chairman.
    I really just have one question, and that is for you, Mr. 
Christiansen. I know some of the witnesses today have concerns 
about Section C, which deletes language related to the Utah 
Lake drainage basin. Are you willing to work with these 
individuals to find a way to leave the basin language in the 
statute?
    Mr. Christiansen. Yes, Mr. Cannon, we are.
    Mr. Cannon. You may want to move the microphone over toward 
you.
    Mr. Christiansen. Did you get that on tape? All of these 
folks trust me. We are more than willing to change that wording 
in the legislation. However, it is important that we do include 
in that paragraph the words ``municipal'' and ``industrial.'' 
If I am to build any facilities that will deliver water to my 
good friend sitting next to me here, the municipal/industrial 
words do need to appear in there, but the Utah Lake lands, we 
are happy to work out the language that would leave that in the 
bill, Mr. Cannon.
    Mr. Cannon. And do you think that that, have you had enough 
discussion that you think that you can meet the needs of the 
people who are concerned about that language?
    Mr. Christiansen. Yes.
    Mr. Cannon. Great. Thank you, and I have no other questions 
about this, Mr. Chairman.
    Mr. Rehberg. Thank you, Mr. Cannon. If you had completed 
your immigration work sooner, you would have had that other 
congressional seat. You wouldn't be suing right now.
    [Laughter.]
    Mr. Cannon. We are hoping that it is independent, but if 
you are of another mind, we hope that you will keep your 
opinion to yourself.
    [Laughter.]
    Mr. Cannon. We view this as another seat for the great 
State of Montana, since we think a lot alike.
    Mr. Rehberg. Yes, and we are well aware of where you are 
taking that seat from. We sued 10 years ago and were not 
successful, so we are kind of counting on you not being 
successful this time.
    Mr. Cannon. Courts change over time.
    Mr. Rehberg. Yes, they do. But we have given it up. We know 
we are going to lose.
    We thank you for traveling so far, and apologize for the 
inconvenience that we created with the votes we had today. You 
have convinced me, and I am one of those, you probably heard my 
opening statement on the next bill, promises made that are not 
kept is something that I ran against. And I just find it 
bothersome that the Federal Government sometimes does not 
remember the promised they made, but those of us who get to be 
here for extended periods of time, we will remember and you can 
count on our support.
    Mr. Brailsford. We get tired of the carrot.
    Mr. Cannon. We do want some wet water involved in this 
process, and I might just point out that I am pleased, at least 
under the current scenario, to be representing at least part of 
Juab County, and look forward to--I have never thought of you 
guys as a 98-pound weakling. I thought of you as a bunch of 
tough guys. But I am pleased to be working with you.
    I am going to have to go to a press conference here in a 
few minutes with Chairman Sensenbrenner and General Ashcroft 
about INS, but I have a few minutes. I am going to slip out in 
the hall, and if we need to talk about some of these things, I 
would be happy to meet with you for a few minutes there. Thank 
you.
    Mr. Rehberg. Congressman ``Cannonball'' Cannon to the 
rescue. Thank you very much.
    Mr. Cannon. Thank you.
    Mr. Rehberg. Next panel, please. OK, if we could get the 
other panel to please sit down, we will get started. Mr. 
Sunchild, we will allow you the opportunity, as you are 
scheduled to go first, and please feel free to get up and leave 
as you have to. You are still OK. I know that route real well. 
It takes about 20 minutes, so you are probably still OK.
    But why don't we begin this hearing on H.R. 1946, and we 
will begin with Mr. Sunchild.

STATEMENT OF BRUCE SUNCHILD, SR., VICE CHAIRMAN, CHIPPEWA CREE 
                             TRIBE

    Mr. Sunchild. Thank you very much, Mr. Chairman. Mr. 
Chairman, and members of the Subcommittee, my name is Bruce 
Sunchild, Sr. I am the Vice Chairman of the Chippewa Cree Tribe 
of Rocky Boy's Reservation, and co-chair of Rocky Boy's/North 
Central Montana Regional Water System.
    I have a prepared statement that I have submitted for the 
record. I will now summarize my remarks and relay a few key 
points.
    I would like to thank Chairman Calvert and the members of 
the Subcommittee on Water and Power for convening this hearing, 
and I would like to also thank our Montana representative, 
Denny Rehberg, for his strong and continuing support of this 
project. The Chippewa Cree Tribe and North Central Regional 
Water Authority are jointly seeking Federal legislation 
authorizing Rocky Boy's/North Central Montana Regional Water 
System.
    The water system will provide a safe, reliable municipal, 
rural, and industrial water supply for the Rocky Boy's 
Reservation and our neighboring off-reservation communities. 
This project is essential to our tribe's goal of establishing a 
self-sustainable homeland.
    The Rocky Boy's Reservation is located in an area where 
water is in scarce supply, which greatly limits our economic 
development and opportunities. Studies have demonstrated that 
the reservation cannot sustain its current rate of growth, much 
less provide for economic growth, without additional supplies 
of water for drinking, agricultural, municipal, and industrial 
purposes.
    The unemployment rate on Rocky Boy's Reservation is 
extraordinarily high. Approximately 39 percent of Rocky Boy's 
population lives below the poverty level. Without an adequate 
water supply, the picture will never improve.
    The water rights of the Chippewa Cree Tribe are described 
in Public Law 106-163. The Chippewa Cree Tribe and Rocky Boy's 
Reservation Indian Reserve Water Rights Settlement--that is a 
tongue-twister--Water Supply Enhancement Act of 1999 ratified 
the water compact entered into by the tribe and the State of 
Montana in 1997.
    The Federal Settlement Act identified a need to import 
water to the reservation area for long-term MR&I needs, and the 
settlement authorized a study to identify a preferred plan to 
meet those needs. And, Mr. Chairman, I would like to make a 
comment at that point where Mr. Keys had made comments about 
studying this. This particular project has been ongoing, and 
our water rights settlement package, BOR received a substantial 
amount of money to complete this water study.
    Mr. Chairman, the study has long been going on. It is time 
for us to go to work and get some wet water to Rocky Boy's 
Reservation. The past panel here talked about wet water, and 
that is the same problem that we have. We need the wet water. 
It is difficult for us to drink water that is sitting 50 miles 
away from our reservation.
    And I was bothered by the testimony of Mr. Keys when he 
talks about my water rights settlement and what position that 
they are taking at this point. The bill clearly states that 
nothing prohibited us from coming back to seek water, to 
transport those waters from 50 miles away, from Tiber Dam.
    Monday, I left Monday from Rocky Boy's at 4 o'clock in the 
morning to come to D.C. to prepare for these testimonies. 
Monday night at 9 o'clock there was fire at my Rocky Boy's 
Reservation that contained 200 acres of fire, in April. Mind 
you, gentlemen. this is April, and that fire season is going to 
get worse.
    And in putting out that fire, the lower part of my system, 
which is Box Elder, Montana, was temporarily out of water until 
the next morning, to replenish that aquifer to supply that 
water. Gentlemen, that is a need that we have for water that is 
so drastic. At this point right now we thought was the 
opportune time to do that with our settlement dollars, through 
our neighboring, off-the-reservation communities, was an 
opportune time to connect those, to put our projects together 
and come to Congress for this authorization.
    Any questions that you may have, I would like to answer as 
much as I can here, but emotionally right now, if I go on any 
further I think I would--you know, I feel slighted. I feel 
slighted by the testimony given by Mr. Keys. I guess I should 
be used to it by now, but I am sorry, sir, I cannot get used to 
that. And my testimony is written and there for the record, and 
I thank you very much.
    [The prepared statement of Mr. Sunchild follows:]

 Statement of Bruce Sunchild, Sr., Vice-Cchairman, Chippewa Cree Tribe 
                     of the Rocky Boy's Reservation

    Mr. Chairman and members of the Subcommittee, my name is Bruce 
Sunchild, Sr. I am the Vice-Chairman of the Chippewa Cree Tribe of the 
Rocky Boy's Reservation and Co-Chairman of the Rocky Boy North Central 
Montana Regional Water System Coordinating Committee. I would like to 
thank the Honorable Chairman Ken Calvert and the members of the 
Subcommittee on Water and Power. I would also like to thank our Montana 
Representative Denny Rehberg for his strong and continuing support for 
this project.
    The Chippewa Cree Tribe and the North Central Regional Water 
Authority are jointly seeking Federal legislation authorizing the Rocky 
Boy's/North Central Montana Regional Water System. The water system 
will provide a safe and reliable municipal, rural, and industrial water 
supply for the Rocky Boy's Reservation and our neighboring off-
reservation communities.
    This project is essential to our Tribes' goal of establishing a 
self-sustaining homeland. The Rocky Boy's Reservation, located in north 
central Montana, consists of more than 120,000 acres, which are home to 
approximately 3,500 Tribal members who reside on the reservation. We 
have a rapid population growth rate that exceeds 3% annually.
    Unemployment on the Rocky Boy's Reservation is extraordinarily high 
and approximately 39% of Rocky Boy's population lives below the poverty 
level.
    The Chippewa Cree Tribe has made important strides in economic 
development over the past ten years in the areas of production of 
cattle, grain, timber and tourism. Although the reservation's economy 
has improved in the last decade, the reservation still lacks an 
adequate water source and infrastructure for any sustained municipal 
and industrial growth. Recently, drought relief monies were obtained to 
build new wells for the current municipal system. However, lack of 
recharge to the shallow bedrock aquifers on the Reservation severely 
limits water yield. Proposed expansions of our tribal college and other 
enterprises cannot proceed until new firm water supplies are located.
    The Rocky Boy's Reservation is located in an area of scarce water 
supply, which greatly limits economic development opportunities. 
Studies have demonstrated that the reservation cannot sustain its 
current rate of growth, much less provide for economic growth, without 
additional supplies of water for drinking, agricultural and municipal 
and industrial purposes.
Tribal Water Right
    The water right of the Chippewa Cree Tribe, as described in Public 
Law 106-163, the ``Chippewa Cree Tribe of the Rocky Boy's Reservation 
Indian Reserved Water Rights Settlement and Water Supply Enhancement 
Act of 1999,'' ratified the Water Compact entered into by the Tribe and 
the State of Montana. As part of the water settlement, the Tribe 
received an allocation of 10,000 acre-feet per year of stored water 
from the Bureau of Reclamation in Lake Elwell, also referred to as 
Tiber Reservoir. In addition, the settlement provided for an 
appropriation of $15 million as recognition of the need for a new 
Tribal municipal water system and to begin development of a future 
water supply system for the Reservation.
Need for the Water System
    Groundwater is the primary source of domestic water within the 
Rocky Boy's Reservation. In addition to our limited water supply, we 
lack an adequate water delivery infrastructure system. Of the various 
sources of groundwater on the Reservation, only the shallow alluvial 
and bedrock aquifers have potential for development. The other 
groundwater sources either exceed the criteria set by the Safe Drinking 
Water Act, have high concentrations of chloride, sodium, and sulfate, 
or are too expensive to develop. These secondary contaminates make the 
water undesirable for domestic use.
    Although the quality of the water in the shallow alluvial aquifer 
is generally acceptable, the quantity is inadequate. Wells in this 
aquifer generally have low yields, producing 10 gallon per minute or 
less of water. Historically, these private wells are used for a period 
of time and then abandoned due to decreasing yields. As yields 
decrease, the water quality often also decreases. Furthermore, these 
wells are frequently connected to the major water courses where the 
potential for pollution is significant.
    There is simply not enough good quality groundwater to meet the 
Tribe's current needs, much less our future needs. Surface water 
sources are also limited in quantity and cannot provide a reliable 
source of water. As a result, many Tribal members have to haul water 
for their domestic use.
    Employment on the Reservation is a chronic and long-standing 
problem. The Tribe is faced with a young, rapidly growing population 
and a corresponding need for economic development, in an area of 
chronic water shortages. A dependable source of high quality water is 
needed to enable Tribal members and other Reservation residents to 
achieve an adequate standard of living.
    A safe and reliable water supply is a cornerstone of economic 
development. The assurance of an adequate supply of high quality 
municipal, rural and industrial water will enable the Tribe to pursue 
current and future economic development. It will also allow current and 
future Reservation residents to enjoy a higher quality of life through 
improved health conditions, more employment opportunities, and an 
overall increased level of economic development.
Other Alternatives
    There are very few alternatives for providing water to the Rocky 
Boy's Reservation. Studies have shown there are simply no reliable 
surface and groundwater on-reservation sources to serve the needs of 
the Reservation. These studies, conducted by the Tribe, the Bureau of 
Indian Affairs, and the Indian Heath Service, have all concluded that 
there is a need for a Reservation-wide domestic water supply system.
The Project
    The proposed project is an innovative and collaborative solution to 
the need of both the Tribe and the north central part of Montana for an 
MR&I system. Discussion of the proposed project began during the 
compact negotiations between the Tribe and the State of Montana. It was 
recognized as a unique opportunity for the Tribe and its off-
reservation neighbors to cooperate to the benefit of both communities. 
In many areas of this country, competing uses of water would create 
litigation between on and off-reservation waters users. To be 
cooperating in the manner we have is unusual and something that we are 
all proud of.
    Lake Elwell is a Bureau of Reclamation facility located 50 miles 
west of the Rocky Boy's Reservation. The availability of thousands of 
acre feet of unallocated water in Tiber Reservoir provides the 
opportunity to meet the water needs of the Tribe and neighboring north 
central regional communities. P.L. 106-163 allocated 10,000 acre-feet 
per year of water from the lake to the Tribe.
    Water will be diverted from the lake into a common water quality 
treatment plant. The water will be treated to meet all of the criteria 
of the Safe Drinking Water Act. This centralized treatment plant will 
eliminate the need for each community to build its own treatment plant. 
It will also simplify the process of upgrading the plant to meet 
changing requirements of the Safe Drinking Water Act. Because all of 
the water will be treated to standards, Reservation resident will 
uniformly have access to safe drinking water, at acceptable levels.
    A core pipeline will convey water from the treatment plant to the 
Rocky Boy's Reservation. Smaller distribution lines will then convey 
the water to the various communities and users on the Reservation. The 
Tribe proposes to use our $15M in settlement monies to upgrade our 
existing water delivery system to receive the imported water.
    The estimated total cost of the project is $200 million. The tribal 
related portion of the project is estimated at $120 million. All costs 
of the reservation system, including operation and maintenance, will be 
a Federal responsibility.
    This project will dramatically enhance the health, quality of life 
and economic benefits of our Reservation and region. This project will 
allow the Chippewa Cree Tribal members to realize their goal of self-
determination and will provide, for the first time ever, a safe and 
reliable source of drinking water on the Reservation. It will also 
provide the cornerstone for the Tribe's current and future economic 
development plans. I urge your support for this project.
    Mr. Chairman, in the landmark 1908 decision where the Winters 
Doctrine was established, the Supreme Court ruled that when the United 
States established Federal Indian reservations, there had to be 
sufficient water reserved for the tribes to establish those 
reservations as permanent tribal homelands. Over the course of the last 
quarter century, the Federal Government has also strongly urged tribes 
to settle their water rights claims so as to quantify the extent of the 
tribal right and create certainty for off-reservation residents who 
will almost certainly have a junior water right to the tribe. Well, we 
did that. We settled our water rights and the United States ratified 
that settlement in P.L. 106-163, but the settlement of a water right 
only benefits a tribe if there is a method of putting that water to 
some beneficial use. The greening of the west bypassed Indian country, 
Mr. Chairman. Additionally, for the last century, as state and local 
governments established water systems, they too forgot about Indian 
country--at best. At worst they endeavored to divert our water before 
it reached the reservations. Now the Congress has an opportunity to do 
the right thing and to assist both the Chippewa Cree Tribe and the 
dozens of non-Indian communities in North Central Montana who cannot 
presently comply with established drinking water standards. H.R. 1946 
creates an opportunity to culminate the negotiation of our water rights 
into a proverbial win-win situation. We appreciate that our friend 
Denny Rehberg has introduced this bill and we hope that you will now 
mark it up and move it on to the floor of the House. Thank you again 
for the opportunity to testify in support of this important and 
necessary project. I would be pleased to answer any questions.
                                 ______
                                 
    Mr. Rehberg. Thank you, Mr. Sunchild, and I understand your 
frustration. The United States has reserved and made available 
for the Chippewa Cree Tribe 10,000 acre feet of water in the 
Tiber Reservoir. Mr. Sunchild, does it make any sense to you 
for the Federal Government to have that water held for your 
tribe without you having the capacity to access it and use it?
    Mr. Sunchild. None whatsoever. That is a paper right that 
is sitting 50 miles away, and what we need is wet water.
    Mr. Rehberg. Are there viable alternatives or is this the 
only alternative?
    Mr. Sunchild. No. The study that Mr. Keys has talked about 
was a study of Milk River and the Missouri River. Milk River at 
this point is overallocated, and the Missouri has arsenic 
levels to a point where the State of Montana does not allow us 
to degradate another stream. So that, and then the Chippewa 
Cree Tribe has a resolution stating that we will not bring 
arsenic-laced water into our reservation.
    Mr. Rehberg. Thank you, Mr. Sunchild. Please feel free to 
leave when you need to.
    Mr. Sunchild. Gentlemen, again I would like to thank you 
for this opportunity, and we need your support. Thank you very 
much.
    Mr. Rehberg. Thank you.
    The next gentleman, I kiddingly say to the entire State of 
Montana that I came back as a freshman for orientation the week 
after the election, and the very first person I met with was 
Mr. Keil on this project, and I wasn't even to be sworn in for 
another month and a half. That is how much this project means 
to Mr. Keil. Welcome.

STATEMENT OF DANIEL KEIL, CHAIRMAN, NORTH CENTRAL MONTANA ROCKY 
                 BOY'S REGIONAL WATER AUTHORITY

    Mr. Keil. Thank you, Mr. Chairman. I want to thank you for 
the opportunity to come back here. For the record, my name is 
Dan Keil, that is K-E-I-L. I serve in the capacity as Chairman 
of the North Central Montana Regional Water Authority. Previous 
to that or in another life, I am a farmer in dry old Montana, 
where we are experiencing in our area the sixth year in a row 
of drought, and it is getting to some of the community water 
systems that are participating in this project.
    If I may draw your attention to the map that is attached to 
my testimony, the size of this project, you can see that it is 
approximately 10,700 square miles. On that map you will find 
that there are different coded tracings. Those describe the 
existing water systems that are part of the participation. 
There are several water districts. Mine is the Tiber Water 
District which serves portions of five counties in north 
central Montana.
    I have been on that Tiber Water Board since it was started 
in the early 1970's, and it was started as a result of the 
first SALT agreement that President Nixon went to Russia and 
signed. When he did that, it stopped the construction on a 
military facility just up the road from my house, and part of 
that was a large water line that went across country, that was 
put in for the service of a military base and for the water for 
cooling for that facility.
    As a result of that, when they closed it down, the 
community got together and formed a water district in those 
five counties, and I was elected president and served on that 
board. I still serve on that board, but I was president for a 
number of years.
    You know, when the water came to us, before that we all had 
to haul water, and some of the people in this district hauled 
water 25 miles one way, you get real conservative. You know, 
one of the big difficulties that we had in that water system or 
the farmers had, was when the water, when we got it there, we 
finally had water that we could do just about anything we 
wanted to with. We could turn the tap on let her run a little 
bit longer than necessary.
    You know, Denny, you were talking about the problems with 
having the people running water in your house. Well, the other 
one was, was flushing the toilet. You know, when you don't 
flush it by necessity, it becomes pretty rank. But it is nice 
to have flowing water, and we are very proud of it, and the 
people out in the communities that are part of these systems 
are very proud of it.
    When the opportunity came to try and solve additional 
problems that the Federal Government has put on us with the 
regulations that these small systems have to comply with, this 
is what drives their participation in this regional water 
system. Because it is real easy, when the Federals and the EPA 
decide to justify the cost-effectiveness of some of these 
programs, and they go in, and say it takes a million people and 
they divide up the cost by a million, then it is affordable. 
When they divide the cost up by the size of some of these 
systems that are part of this thing where there is 23 families, 
then it becomes real expensive to comply with.
    In 1992 there was an ad hoc committee that was formed. I 
served as chairman of that. And in 1999, we formed the 
Authority, and we have been struggling trying to get this 
passed. We were going to be here last fall, but of course the 
9/11 thing kind of put a hold on that. We need to get on with 
the project because a couple of the systems have some time 
lines on compliance issues they have been out there struggling 
with, and we need to get on with the system.
    So I want to take this opportunity to thank you again. I 
have a gentleman here who is representing the Hill County Water 
District which has one of those compliance problems, and if you 
have any questions, we would be pleased to try and answer them.
    [The prepared statement of Mr. Keil follows:]

 Statement of Dan Keil, Chairman, North Central Montana Regional Water 
                               Authority

    Mr. Chairman and members of the subcommittee, my name is Dan Keil. 
I am Chairman of the North Central Montana Regional Water Authority. 
Thank you for the opportunity to testify before the subcommittee in 
support of authorizing the Rocky Boy's/North Central Montana Regional 
Water System. I would also like to thank Representative Rehberg for his 
strong and continuing support for this project.
    The Rocky Boy's/North Central Montana Regional Water System will 
provide a safe and dependable municipal, rural and industrial water 
supply for the Rocky Boy's Reservation and the public water supply 
systems that comprise the North Central Montana Regional Water 
Authority. Speaking on behalf of the off-Reservation portion of the 
project, I can assure you that the communities in north central Montana 
strongly support both the on-Reservation and off-Reservation components 
of the project.
Need for the Water System
    The Rocky Boy's Reservation and north central Montana are plagued 
by problems with water quality and supply. The off-Reservation public 
water supply systems are unable to meet the requirements of the Safe 
Drinking Water Act. According to the Montana Department of 
Environmental Quality (DEQ), three of the public water supply systems 
which would be served by the proposed regional system are out of 
compliance with the Federal Act. Of these three, DEQ has issued an 
administrative order to one system requiring an alternative source of 
water and expects to bring enforcement actions against the other two 
systems in the near future.
    The Montana DEQ prioritized the existing water systems according to 
their expected difficulty in meeting future regulatory requirements 
based upon current EPA proposals and the 1996 amendments to the Safe 
Drinking Water Act. As can be seen from the attached table, almost all 
of the existing systems are either out of compliance or will have 
difficulty meeting future regulatory requirements unless they upgrade 
their systems.
    Many of the systems treat their water with chlorine which in turn 
may cause problems with elevated levels of disinfection by-products. 
Other systems have problems with bacterial contamination and elevated 
levels of total dissolved solids, iron, manganese, lead, copper, 
sulfate and sodium. Boil orders either have been or are presently in 
effect for a number of the systems.
    Many area residents are not served by any public water system. Due 
to the limited availability and poor quality of groundwater, these 
residents must haul their own water. The available water supply fails 
to meet water quality standards and poses real health risks to the 
area's population.
    Water quality problems are exacerbated by water supply issues. 
Because of the general lack of good quality groundwater, most of the 
area's larger public water systems use surface water supplies, 
including the Milk River. As recognized in the North Central Montana 
Regional Water System Planning/Environmental Report dated May 2000, the 
availability of direct flow supplies from the Milk River is limited by 
the loss of active storage due to the rapid rate of sedimentation, 
unused Canadian treaty rights and unquantified Indian reserved water 
rights. Public water systems relying on the Milk River have had to 
implement strict water rationing requirements.
    The water availability problems have been aggravated by drought. In 
2000 and 2001, the U.S. Department of Agriculture classified all 56 
Montana counties under drought disaster status. A number of the 
counties which will be served by the proposed regional water system 
have received a drought disaster classification for the last five 
years. As of March 14, 2002, the National Oceanic and Atmospheric 
Administration predicted the drought in Montana is likely to persist. 
In recognition of the continuing drought, the U.S. Department of 
Agriculture has already granted Montana drought disaster status for 
2002.
    The poverty rate for all eight counties which will be served by the 
regional water system exceeds the national average. According to the 
U.S. Census Bureau, 19.8 percent of the people in Hill County and 17.4 
percent in Toole County live in poverty. These are two of the counties 
which will be served by the regional water system. The Montana 
Department of Labor & Industry reports the unemployment rate on the 
Rocky Boy's Reservation at 27 percent. According to the Department, 
unemployment on the Rocky Boy's Reservation is more than twice that on 
other Montana reservations and is the highest in the state. These 
statistics only reflect those persons actively looking for work and do 
not reflect the true situation on the Reservation where many have 
become discouraged and given up hope of finding a job. In 1999, this 
committee's report on the Rocky Boy's Reservation's Indian reserved 
water rights settlement estimated unemployment on the Reservation at 
nearly 70 percent. A reliable source of safe drinking water is 
necessary to improve the low standard of living on the Reservation and 
in the surrounding area.
    A dependable supply of water is also essential to ongoing efforts 
to attract new businesses to the area in order to provide for future 
economic growth. In addition to long term benefits, the regional water 
project will provide an immediate economic boost for north central 
Montana and the Rocky Boy's Reservation. Assuming labor costs for the 
project at 25 percent of the total construction budget, the project 
will generate approximately $38.75 million in wages via 1,242 
construction man hours. These construction dollars will provide a much 
needed stimulus to the regional economy.
    The North Central Montana Regional Water Authority, along with the 
Rocky Boy's Reservation, the State of Montana, and the Bureau of 
Reclamation, has studied possible alternatives to supply water to the 
region. The option of updating existing public water supply systems to 
comply with the Safe Drinking Water Act was rejected due to the high 
cost. Another option, using Missouri River water, was rejected because 
it would introduce arsenic from the Missouri into the Milk River basin, 
thereby degrading the water quality of the receiving streams. Obtaining 
additional water from the Milk River was also studied but rejected due 
to the limited physical and legal availability of water. The use of 
additional groundwater sources was also investigated. This option was 
not feasible because there is very little groundwater physically 
available, and the groundwater that is available is of poor quality or 
is under the influence of surface water which according to the Safe 
Drinking Water Act requires treatment. Of all the alternatives 
reviewed, the proposed regional water project is the only one which 
provides a dependable water supply while offering the lowest capital 
project and life-cycle costs.
The Project
    Water for the Rocky Boy's/North Central Montana Regional Water 
System will be diverted from Lake Elwell, a Bureau of Reclamation 
reservoir on the Marias River, which is located approximately 40 miles 
west of the Rocky Boy's Reservation. As part of the Rocky Boy's 
reserved water rights settlement, the Chippewa Cree Tribe was allocated 
10,000 acre-feet per year from storage in Lake Elwell. The off-
Reservation portion of the regional water system will contract with the 
Bureau of Reclamation for purchase of stored water from Lake Elwell. 
There is sufficient storage available in the reservoir to provide a 
reliable supply for the project while satisfying recreational and 
fishery needs.
    A water treatment plant, using conventional filtration, will be 
located near the intake on Lake Elwell. The water will be treated to 
meet both the primary and secondary requirements of the Safe Drinking 
Water Act standards. A core pipeline will convey water from the 
treatment plant to the Rocky Boy's Reservation. A series of 
transmission pipelines will also provide water to smaller distribution 
lines belonging to the area's off-Reservation public water supply 
systems. The regional water system will take advantage of the 
infrastructure of these existing systems. When completed, the regional 
water system will provide a safe and dependable water supply for a 
projected 30,000 people in 2045. Water will be provided to all or parts 
of eight counties including 10,700 square miles in north central 
Montana.
    Without the proposed centralized water treatment plant, most of the 
participating systems would be required to build new or to 
significantly upgrade existing conventional water treatment plants. Due 
to the low population densities and limited income potential in north 
central Montana, individual communities, both on and off the 
Reservation, cannot afford their own treatment plants. The existing 
public water supply systems are also concerned about additional 
upgrades which may be necessary in the future to satisfy changing 
Federal and state regulation. A central treatment plant will allow 
these existing systems to economically meet both the current and any 
future requirements of the Act.
    The estimated total project cost is $200 million, the Rocky Boy's 
Reservation portion of which is $120 million. The bill proposes the 
Federal share of the off-Reservation construction to be 75 percent. The 
North Central Montana Regional Water Authority has worked with the 
State of Montana to secure funding for the non-federal share of the 
capital costs. A portion of the approximate $20 million non-federal 
share of the project has already been set aside. The Authority will 
also be responsible for the cost of operating, maintaining and 
repairing the off-Reservation portion of the project.
    The north central Montana communities and the Tribe have been 
working together on the project development since 1992, having formed 
an Ad Hoc Committee in 1993. Off-Reservation and Tribal communities 
worked with the 1999 Montana Legislature to enact legislation allowing 
establishment of regional water authorities and creating a state 
regional water system fund. This type of cooperation is needed to 
benefit all Montanans. Recognizing the area's need, the State of 
Montana, local entities and the Tribe agreed to seek Federal 
authorization for the project. This joint commitment is evidenced in 
the reserved water rights compact negotiated between the Chippewa Cree 
Tribe, the State of Montana, and the Federal Government.
    Sixteen rural water districts, two water users associations, and 
several Hutterite colonies originally expressed an interest in the 
project and paid preliminary fees to demonstrate their earnestness. I 
have attached to my testimony a list of the participating off-
Reservation entities. In addition, more than 145 households not 
presently served by a water system have expressed interest in receiving 
water. All of the public water systems on the attached list are members 
of the North Central Montana Regional Water Authority.
    The people of north central Montana and the Rocky Boy's Reservation 
presently do not have a reliable source of water. The proposed regional 
water system will provide water to an area historically afflicted by 
water supply and quality problems. We ask this subcommittee's support 
in passing this important legislation to protect the social and 
economic future of our region.
    Thank you again for the opportunity to testify in support of the 
Rocky Boy's/North Central Montana Regional Water System. I would be 
pleased to answer any questions.
                                 ______
                                 
    [Attachments to Mr. Keil's statement follow:]




[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Rehberg. Thank you, Mr. Keil. Normally we wait until 
after everyone on the panel has spoken to ask questions, but 
since I am the Chairman, I can do anything I want. So I would 
like to ask you the question, approximately how much would it 
cost per household to comply, if you were required to?
    Mr. Keil. Well, you know, for the Hill County system?
    Mr. Rehberg. Any system. You could use the worst case 
scenario or--
    Mr. Keil. It depends upon the type of water that they have 
available, as to what the technology that they would have to 
use would be. My water system has technology right now that 
they are in compliance, but some of the new proposed 
regulations coming down the line, we haven't had an opportunity 
to analyze those costs of what it is going to be to comply with 
those issues, such as the disinfection byproducts. There are 
several of those type of things that are coming down the line 
right now.
    The water systems, like with Hill County, it is hundreds of 
dollars per month, you know, with a small system. Right now our 
water rates for some of these systems are in excess of $135 a 
month, without any additional cost.
    Mr. Rehberg. Do you have professional water hauling 
businesses in your area? In Billings I get charged--I am 
literally 10 minutes from downtown Billings, so I am as close 
as you can get but I still have to haul water to my home--it 
costs me about $30 for 2,000 gallons. Do you have a business 
that you can call to deliver that 25 miles, or--
    Mr. Keil. You know, in rural country all the farmers have 
got trucks that we are hauling the water, and they would slip a 
tank on the back and would haul their own. And of course, like 
a good farmer, our time, we are not worth anything. So I don't 
know of anybody in my immediate area that makes a living out of 
hauling water, you know.
    Mr. Rehberg. I used to haul my own until I needed do get 
another job. It took me 8 hours a day, 8,000 gallons a day.
    Mr. Keil. Well, yes. You know, that is--before the 
introduction of these rural systems, that controlled our life, 
hauling water. And it is always a lot of fun to haul water when 
your cistern runs empty and it is 20 below zero.
    Mr. Rehberg. That is right. OK, thank you, Mr. Keil.
    And finally, Mr. Tubbs, you just can't seem to get away 
from me, can you? We have worked together for a long time. It 
is nice to see you in your new capacity. Welcome to Washington, 
and if you please.

STATEMENT OF JOHN E. TUBBS, CHIEF, RESOURCE DEVELOPMENT BUREAU, 
    MONTANA DEPARTMENT OF NATURAL RESOURCES AND CONSERVATION

    Mr. Tubbs. Mr. Chairman, it is nice to see you in your new 
capacity. It is great to be here. It is truly an honor to 
testify before the House and this Committee from the State of 
Montana. I want to thank you for that opportunity, and strongly 
support the Rocky Boy's/North Central Montana Regional Water 
Supply System.
    I want also to relay Governor Martz's strong support for 
this regional water system. She is fully aware of the 
importance of a safe drinking water supply to this region of 
Montana. It is a cornerstone of life and economic life, and I 
know that Governor Martz's strong support will not end, and she 
is going to pursue this project.
    The Chippewa Cree tribal government of the Rocky Boy's 
Reservation has been trying to address a serious need for safe 
drinking water for over a decade now. This driving need for a 
reliable and high quality source of water supply presented an 
opportunity to work with a regional water system, where both 
the tribal government and the nontribal communities in the area 
for one of the first times are working cooperatively to solve a 
common need. Everybody needs a safe source of drinking water.
    And it should not be missed by this Committee and Congress, 
this relationship building between tribal and nontribal 
governments in the State. Oftentimes they don't work together 
and work at cross purposes. This is not one of those times, and 
we really need to honor that relationship that they are 
building on this drinking water system.
    Montana is also suffering, as Dan mentioned in his area, 6 
years of drought State-wide. It is 4 years of long-term 
drought. Initially our surface water supplies were the first 
hit, but now groundwater supplies are suffering because of the 
lack of recharge over years. That is not going to recover for a 
long time. The moisture loss to the soil and the groundwater 
continues now with, as Vice Chairman Sunchild mentioned, a fire 
in April on the Rocky Boy's is not a good sign for the future 
of this summer.
    We considered a number of alternatives. Hill County Water 
District, made reference to, uses water out of the Milk River. 
Today if you went out to one of the major reservoirs you could 
walk across it, because it is empty. It is literally empty--
Havre had to restrict their water use 2 weeks ago because of 
the lack of any stored water in the Milk River drainage. That 
is just not an option for this region, to go back to the Milk 
River.
    The Missouri River, as mentioned, does have arsenic in it 
that is naturally occurring from Yellowstone Park. It comes out 
of the Firehole River and goes down the river system all the 
way to New Orleans. The State does not want to see arsenic 
introduced into the Milk River system, which does not have 
arsenic. And so from a water quality standpoint, as you know, 
Representative Rehberg, in Montana degradation of high quality 
water just isn't allowed. I mean, you just can't move that over 
into another drainage, so that isn't an option.
    The only other option that is really available is to go on 
the way we are going with the regional water system. Which is 
to have 20 independent, very small water systems, that right 
now have no adequate water, and systems on the reservation. And 
the problem from the State's perspective is that we have to 
regulate all 20 of those systems, and none of them are having 
an easy time staying in compliance.
    And as Dan mentioned, with the few number of customers each 
one of them has, they don't have the capacity to deal with 
changes that are promulgated through rulemaking under the Safe 
Drinking Water Act. The change comes, and where do they get the 
money? I mean, how do they react to it? How do they meet that 
need?
    Well, with a central treatment plant we are going to be 
able to regulate one point within the region that is going to 
be built to standard to begin with, and anticipate future 
standards. It will have a greater number of users on it, so any 
change can be borne by a larger population.
    And we really, strongly feel that this is the way we can 
develop the capacity in Montana to both provide safe drinking 
water and also have an adequate source, because Tiber Reservoir 
is one of the few places in the whole region where we can get 
drought relief for these communities. It is a very good, firm 
source of water supply out there. There is plenty of water in 
Tiber Reservoir to contract. It isn't going to run out.
    So we strongly support this regional system. We encourage 
the Congress to pass H.R. 1946 now, to get it authorized. 
Authorization is going to let us engage the Bureau of 
Reclamation and get this project done. We have got to pass this 
bill.
    [The prepared statement of Mr. Tubbs follows:]

 Statement of John Tubbs, Chief, Resource Development Bureau, Montana 
            Department of Natural Resources and Conservation

    Mr. Chairman and members of the committee, for the record my name 
is John Tubbs. I am Chief of the Resource Development Bureau of the 
Montana Department of Natural Resources and Conservation. As a 
representative of the State of Montana, I want to thank you for the 
opportunity to provide testimony in support of House of Representatives 
Bill 1946 authorizing the `Rocky Boy's/North Central Montana Regional 
Water System Act of 2001'.
    Governor Martz has asked me to relay her strong support of the 
proposed regional water project in North Central Montana. Governor 
Martz is very interested in seeing this project authorized because of 
the tremendous need for safe drinking water in this area of Montana and 
the benefits the regional water system can provide to the water users, 
the state and the nation. As my testimony will demonstrate, the support 
of the State of Montana for this project is strong and comes with a 
significant financial commitment for funding.
    The Chippewa Cree Tribal Government of the Rocky Boy's Reservation 
has been trying to address a serious need for safe drinking water. This 
driving need for a reliable, high quality water supply presented the 
opportunity for a regional water system to serve tribal members and 
non-tribal communities. Working with local and state representatives, 
tribal leaders have taken this opportunity to work with their neighbors 
to achieve a common goal, adequate and safe drinking water for our 
communities. It is so important to note this positive action of both 
the tribal and non-tribal communities working together. When the tribal 
leaders reached out to their neighbors and extended this opportunity 
and vision, they bridged a gap in relationships that had existed for 
decades. The proposed Rocky Boy's / North Central Montana Regional 
Water System is a shared vision based on a common need.
    In the early 1990's, representatives from the tribal and non-tribal 
governments met to begin the planning for this project. The 
opportunities that a regional water supply presented were 
unquestionable, but the very size and cost of the proposal led to many 
questions about economic feasibility. An interagency team was assembled 
to coordinate a state review of the proposed regional water system. The 
team is composed of representatives for the Departments of Natural 
Resources and Conservation, Environmental Quality, and Commerce. This 
state coordinating committee is still actively evaluating the proposal. 
Two state grants have been awarded to provide funding for preliminary 
engineering for the system so everyone can base their support for this 
project on factual information. This process continues.
    What has been shown is that water quality is poor in some areas of 
the region, and inadequate water quantity is often an issue. 
Communities and water districts in the region have tried to attack this 
problem through several methods. Some are not treating water from a 
number of surface sources beyond chlorination. As a result, at least 
three systems are currently out of compliance with Federal safe 
drinking water standards. Up to 13 of the remaining systems are 
expected to have difficulty meeting future regulatory requirements 
based upon current U.S. EPA regulatory proposals or other requirements 
of the 1996 amendments to the Safe Drinking Water Act (SDWA). 
Compliance with the requirements of the Safe Drinking Water Act is 
difficult in large part because there are 20 individual public water 
supplies serving the rural communities of the area. The small number of 
users served by each of the individual systems must bear the full cost 
of running a drinking water system. By joining together on a regional 
basis, future costs will be associated with one intake and treatment 
facility, and they will spread against a larger user base. From the 
state's perspective, a regional system will be able to demonstrate that 
they have the capacity to operate, manage, and finance future 
operations.
    Insufficient water quantity is an everyday issue to many of the 
residents of the area. Montana is in the fourth year of a severe 
drought. To bring this into perspective, precipitation has been so far 
below normal that it is estimated we have lost an entire years worth of 
normal precipitation over the four-year period. Initially, surface 
water sources were the hardest hit by the drought. However, due to the 
length of the drought, groundwater supplies are now threatened. The 
proposed source of supply from Tiber Reservoir would provide both a 
high quality source of drinking water for the region and a firm supply 
of water that ``drought proofs'' the communities in this region. There 
is no other source that has sufficient quantity and quality to meet the 
combined needs of all the communities in this region.
    A key question is what would a regional system cost in comparison 
to the alternatives that these community water supplies may have. The 
total estimated cost of the regional system is approximately $200 
million. The state, as a condition of support, asked for an alternative 
analysis of the costs to communities and individuals of providing safe 
drinking water without a regional system. Based on engineering 
estimates, the cost of maintaining and operating 20 individual water 
systems within the region is about 10 percent lower than the $200 
million cost of constructing the regional system. However, the benefits 
of a regional system greatly exceed the 10 percent increase in total 
cost for the regional project. First, the quality of water provided 
from the regional system will be a great improvement to many of the 
individual systems. If you have bad groundwater to start with, 
treatment doesn't improve it's quality. It only makes it safe to drink. 
Second, maintaining the individual systems does not address the 
benefits of providing a firm water supply that protects the communities 
against future drought.
    From a regulatory aspect a regional water system has significant 
benefits. At the present time, there are 20 different regulated systems 
within the region that wish to be a part of the authority. Meeting 
regulatory requirements of the Safe Drinking Water Act must be 
demonstrated by each system. When a rule changes, all those systems 
must react to the change. Also, because many of the systems are for 
small municipalities or county water districts, some with fewer than 
200 connections, there is a reduced capacity on the part of most of 
these smaller systems to maintain and operate a water system, not to 
mention the problems that the long-established communities are having. 
That means that the Montana Department of Environmental Quality is 
perennially facing problems with compliance. A regional water system 
would provide one point of regulation for the all of the member 
systems. If a rule were changed, it would only affect one treatment 
plant. Due to economies of scale, a regional system can be operated 
with a higher level of oversight and management than individual 
municipal water supply systems. Therefore, an increased degree of 
compliance can be expected.
    The state also supports this regional water system because of its 
potential to yield strong economic benefits. Unemployment on the 
reservation is high. Construction will employ many people that have few 
other job opportunities. The construction period is estimated to be in 
excess of a decade. Once constructed, there will be numerous long-term 
jobs created as the tribe and the non-tribal water users operate and 
maintain the facilities. These types of jobs are highly sought after in 
this area of Montana. Finally, the regional pipeline will provide one 
of the key resources that enterprising businesses look for when they 
locate in an area--a safe water supply. Ranch/farm operations will 
benefit from the stock water available through the system. This will 
immediately improve their bottom line, as increased weight gain can be 
achieved with higher quality water. This project will not resolve all 
of the economic problems that North Central Montana faces; however, it 
will serve as a cornerstone to future success upon which the people in 
the area can build.
    The state supports the Rocky Boy's / North Central Montana Regional 
Water System because it provides the Rocky Boy's Reservation with a 
safe and reliable drinking water system. The Rocky Boy's Reservation is 
the home of the Chippewa and Cree Tribes in Montana. Since the 
establishment of the Rocky Boy Reservation in 1916, tribal members have 
been limited to developing poor quality groundwater sources and limited 
surface water sources for their drinking water systems. The existing 
systems on the reservation are inadequate today and will not be able to 
provide safe drinking water for the future. The state of Montana 
supports every effort to provide the tribal members living on the Rocky 
Boy Reservation a reliable, high quality drinking water system. We are 
all Montanan's and all of us must have the opportunity to prosper 
whether we live on an Indian Reservation or not. It is an absolute; the 
tribal members of the Rocky Boy's Reservation must have a safe and 
reliable drinking water system. The regional system will provide the 
required water supply for the reservation.
    Finally, I would like to tell the Committee about the legislation 
that Montana has passed to support this regional water system proposal. 
Clearly, considering the price tag of this project, a partnership among 
local, state and Federal Governments needs to be forged. Montana has 
made a commitment to this partnership. The Montana State Legislature 
established a funding mechanism in 1999 specifically to provide state 
cost share dollars for regional water systems. This fund has now grown 
to over $8 million and will continue to receive $4 million a year until 
2016. Earning from this fund will be used to match Federal expenditures 
along with local cost share. The Treasure State Regional Water Fund 
Legislation enjoyed strong support from the State of Montana. In the 
Senate, SB 220 received 50 of 50 votes. In the House, SB 220 received 
97 of 100 votes for passage.
    I respectfully request that the committee, after due consideration, 
pass HR. 1946 authorizing the Rocky Boy's / North Central Water System. 
This is so important to the people in North Central Montana that I ask 
on behalf of the State of Montana that you give this bill your 
approval, so that the planning and engineering can proceed on this 
system.
    Thank you for your time today. It was an honor to speak before the 
committee.
                                 ______
                                 
    Mr. Rehberg. Thank you, Mr. Tubbs. Has the Administration, 
the Martz Administration, looked into the opportunities of 
appealing to the EPA if we are not successful in getting this 
project funded, to lessen the standards or give us additional 
time to try and figure out another solution, as Mr. Keys 
indicated in his testimony, that he would desire to create a 
multi-agency coordinating effort? Is there any possibility, or 
is that beyond the Governor's authority and abilities?
    Mr. Tubbs. Mr. Chairman, I don't know that the Governor has 
the ability to change the Safe Drinking Water Act rules. But 
through the DEQ, our Department of Environmental Quality, which 
is the primacy agency for EPA in the State of Montana, they 
have indicated that, one, they want to see this bill moved 
forward or, two, the Hill County Water System needs to build a 
water treatment plant.
    They are willing to work with us if Congress authorizes 
this legislation, because they know full well this is a better 
solution than Hill County going on their own with the resources 
they have independently. And so, I mean, the bottom line is, 
DEQ has said, ``We'll give you until the end of the year to get 
this authorized. Otherwise, we have to move forward.''
    And it is not just an issue of the Safe Drinking Water Act. 
Hill County does not have a surface water treatment plant. They 
divert the water into two large reservoirs and then chlorinate 
it for distribution. So it is more than just the regulatory 
requirement. We are delivering water to a series of communities 
on the high line that is at risk, and the State and EPA can't 
stand by for too much longer without essentially assuming that 
risk for our agencies. We need Hill County to deliver safe 
drinking water.
    And frankly, I am more than willing to work with 
Commissioner Keys on a joint funding, but I would like to kind 
of shift that to the appropriations side of the issue as 
opposed to the authorization side of the issue.
    Mr. Rehberg. Has the State of Montana made a financial 
commitment on their share of the cost?
    Mr. Tubbs. Mr. Chairman, the State of Montana has funded 
for now, nearly a decade, the planning of this project. We have 
established a coal service tax trust fund, where a quarter of 
our coal taxes in Montana that are deposited into the permanent 
trust are dedicated to this. We have built it up now to greater 
than $8 million. It is going to ultimately provide a tremendous 
amount of revenue through the earnings on that trust, and it 
was established specifically for this project and one other in 
northeastern Montana. And, by the way, we only lost 2 votes out 
of 150 votes in the State legislature, so--
    Mr. Rehberg. This is a fund that was established from the 
coal tax revenue, from the principal, not the interest?
    Mr. Tubbs. From the principal. There is a kind of internal 
fund that is being built up, whose revenues, earnings, are 
dedicated for a regional water system non-Federal match. The 
State is strongly behind this project.
    Mr. Rehberg. Strictly for this project, or any water 
project?
    Mr. Tubbs. Two projects were authorized, this one and the 
Dry Prairie Water Project.
    Mr. Rehberg. All right. Officially, I am supposed to say 
the members of the Subcommittee may have some additional 
questions for the witnesses, and we will ask you to respond to 
these in writing. The hearing record will be held open for 
these responses until March 21st of 2002. It says March. Until 
May 21 of 2002.
    If there is no further business, the Chairman again thanks 
the members of the Subcommittee and our witnesses. Without 
objection, the Subcommittee stands adjourned.
    [Whereupon, at 4:30 p.m., the Subcommittee was adjourned.]

                                   - 

</pre></body></html>
